                        U.S. Department of Agriculture

                           Office of Inspector General
                                  Great Plains Region




             Audit Report

Animal and Plant Health Inspection Service
                   and
   Food Safety and Inspection Service
Bovine Spongiform Encephalopathy (BSE)
     Surveillance Program - Phase I




                               Report No. 50601-9-KC
                                        August 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:          August 18, 2004

REPLY TO
ATTN OF:       50601-9-KC

SUBJECT:       Bovine Spongiform Encephalopathy (BSE) Surveillance Program - Phase I

TO:            Dr. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

               Dr. Barbara Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator
               Marketing Regulatory Program Business Services

               Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement, and Review


This report presents the results of our audit of the BSE surveillance program. Your
July 30, 2004, written response to the official draft report is included as exhibit E with
summaries of the response and the Office of Inspector General’s (OIG) position incorporated
into the Findings and Recommendations section of the report, where applicable. The response
included numerous exhibits that we did not include in the report because of their volume.

We accept the management decisions for all recommendations. Please follow your agency’s
internal procedures in forwarding documentation for final action to the Office of the Chief
Financial Officer (OCFO). We are providing a separate memorandum to the agencies and OCFO
that provides specific information on the actions to be completed to achieve final action.

We appreciate the cooperation and assistance provided to our staff during the audit.




ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Animal and Plant Health Inspection Service and Food Safety and Inspection Service
Bovine Spongiform Encephalopathy (BSE) Surveillance Program - Phase I

Results in Brief    Since 1990, the U.S. Department of Agriculture’s (USDA) Animal and Plant
                    Health Inspection Service (APHIS) has led an interagency effort to monitor
                    Bovine Spongiform Encephalopathy (BSE), widely known as “mad cow
                    disease.” Central to this effort was the testing of cattle in a high-risk
                    category—those that exhibited a disorder in their central nervous systems
                    (CNS), such as difficulty standing, walking, etc., and cattle that died on the
                    farm from unclear causes. With the discovery of a BSE-infected animal in
                    December 2003, APHIS determined to expand its surveillance program to
                    test a larger number of high-risk animals. The goal of the program before
                    2004 had been to test 12,500 animals per year; under the expanded program,
                    the goal extends to over 200,000 animals to be tested in a 12 to 18 month
                    period.

                    The objectives of our audit were to determine whether the surveillance
                    program in place at the time of the December 2003 discovery of BSE was
                    adequately implemented and whether the expanded program will accomplish
                    its stated goal—to determine if “…BSE is actually present in the population
                    and if so, at what level.”

                    This is the first in a series of reports we are planning to issue on our
                    evaluation of USDA’s BSE surveillance activities. We could not fully
                    evaluate the first objective due to the absence of adequate documentation (see
                    General Comments Section) to support the basis for USDA’s BSE
                    surveillance plan prior to the discovery of the BSE-infected cow. Our
                    evaluation of the second objective was limited because the design and
                    implementation of the BSE surveillance program is still in a state of flux.
                    However, where possible, we assessed documents provided to us and
                    interviewed USDA personnel so that we could provide USDA with
                    recommendations on potential concerns and issues as it moves forward with
                    implementation.

                    USDA’s expanded surveillance program is based largely on a broadened plan
                    of sampling. This sampling plan has been announced as scientifically based
                    and representative of the population of U.S. cattle as a whole. However, we
                    concluded that several limitations inherent in the sampling plan need to be
                    clarified so that industry, the public, and U.S. trading partners understand
                    what the results of the testing actually imply.

                    •   Sampling is not truly random because participation in the program is
                        voluntary. The BSE sampling plan, as designed, assumes each animal
USDA/OIG-A/50601-9-KC                                                                      Page i
                              has the same chance of being selected for BSE testing, which will not be
                              true if testing is voluntary. APHIS has the authority to collect samples,
                              but it has chosen not to exercise this authority, except at
                              federally-inspected slaughter facilities.

                          •   Discovery of BSE cases will result in a statistical projection with either a
                              significantly lower confidence level or a significantly higher maximum
                              BSE prevalence level. By not discussing this, the plan’s statistical
                              statements may inadvertently overemphasize the implied “best-case
                              scenario.”

                          •   As the plan is currently designed, APHIS cannot obtain a statistically
                              appropriate geographical representation of the U.S. cattle population.
                              Because the program is voluntary and the universe of high-risk cattle is
                              difficult to identify, obtain, and test, the surveillance plan needs to be
                              clarified and its conclusions relating to the prevalence of BSE may need
                              to be qualified.

                          •   APHIS’ sampling plan assumes BSE is confined to the high-risk cattle
                              population; other studies show that healthy-looking animals may also
                              have BSE.

                          •   APHIS’ plan to test 20,000 clinically normal cattle may give the incorrect
                              impression that these few tests will suggest a level of assurance higher
                              than warranted about the 45 million adult cattle in the United States.1

                          •   APHIS cannot easily identify, obtain, or test cattle in its high-risk
                              population; therefore, the chances of detecting BSE, if it exists, may be
                              reduced and the projected maximum BSE prevalence rate may be
                              unreliable.

                          APHIS needs to fully disclose the assumptions that it made in designing its
                          sampling plan, and it needs to clarify the limitations that exist in the data it
                          will collect. Beyond its sampling design, however, lie significant challenges
                          for APHIS in its goal to determine if BSE exists in the United States at a
                          prevalence of at least one case per 10 million adult cattle. These
                          challenges—in identifying and testing the high-risk population of cattle—
                          were inherent in the operations of the surveillance program as it had been
                          conducted prior to June 2004, and still exist under the expanded program.

                               Cattle condemned at slaughter plants for CNS symptoms were not
                               always tested for BSE. This occurred because of confusion in testing
                               requirements and lack of coordination between APHIS and the agency

1
   National Agricultural Statistics Service, Agricultural Statistics 2003, per Table 7-2 for 2002, 44,474,000
(equals 33,118,000 beef cows plus 9,112,000 milk cows plus 2,244,000 bulls).
USDA/OIG-A/50601-9-KC                                                                                Page ii
                        that condemns cattle at slaughtering plants, the Food Safety and
                        Inspection Service (FSIS). Of the 680 cattle FSIS condemned for CNS
                        symptoms between fiscal years (FY) 2002 and 2004 (through
                        February 2004), we could validate that only 162 were tested for BSE.

                        USDA needs to increase testing of rabies-negative brain samples.
                        Rabies cases exhibit clinical signs not inconsistent with BSE, and a
                        negative rabies test means the cause of the cow’s disorder has not been
                        diagnosed. Nevertheless, this high priority population has not been
                        adequately pursued for BSE testing. Public health and State veterinary
                        diagnostic laboratories did not always submit rabies-negative samples for
                        BSE testing because there was no formal mechanism in place to ensure
                        the submissions.

                        A process for obtaining samples from animals that “died on the
                        farm” has not been developed. These samples are important because the
                        high-risk animals that die on the farm comprise the largest component of
                        the targeted high-risk population and the most difficult to identify,
                        obtain, and test. Identifying truly high-risk cattle that die on the farm
                        may be complicated by the reluctance of producers to submit them for
                        testing and the motivation to mischaracterize low-risk carcasses as “high
                        risk” since only the latter may qualify for reimbursement.

                        The age requirement for BSE testing should be standardized to prevent
                        confusion. Current testing guidance contains inconsistent age criteria for
                        testing cattle for BSE. Some documents emphasize testing of livestock
                        at 20 months of age, some at 24 months of age, and at least one—the
                        APHIS Surveillance Plan of March 2004—over 30 months of age. This
                        confusion has created and will continue to create a potential that some
                        cattle may not be subject to BSE testing.

                   We are recommending that APHIS implement management controls to
                   ensure that all high-risk animals, including those that test negative for rabies,
                   those condemned for CNS symptoms, and those that die on the farm from
                   unknown causes are sampled and tested in accordance with USDA policy and
                   the 2004 Surveillance Plan.

                   In reviewing APHIS’ management of the BSE surveillance program, we also
                   noted some areas of concern in program administration. Most critically, we
                   found that stronger controls were needed over the collection of test samples
                   and the recording of test information. We found cases in which test samplers
                   submitted nonviable samples and provided inaccurate or incomplete
                   information on their submission forms. We found other cases in which some
                   animals that had been tested for such non-high-risk symptoms as diarrhea and
                   inner ear infection were included in APHIS’ count of samples for the purpose
                   of meeting surveillance goals. Some information maintained in the
USDA/OIG-A/50601-9-KC                                                                       Page iii
                   surveillance program’s database was the result of misentries. This database
                   was the source of APHIS’ reports on surveillance achievements.

                   We are recommending that APHIS expedite its development of a new
                   management information system to track and report its accomplishments
                   under the expanded surveillance program. We are also recommending that
                   APHIS implement performance measures and a continuous risk assessment to
                   enhance its management of the surveillance program and better assess the
                   program’s effectiveness.

                   Finally, we noted that, prior to June 1, 2004, APHIS did not have standard
                   written agreements in place to ensure consistent performance from
                   non-Federal laboratories and reasonable arrangements and charges from meat
                   plants and contractors who provide sampling services. Use of these entities
                   will increase as the 2004 surveillance program expands. Past arrangements
                   with meat plants and sampling contractors were made on a regional basis,
                   were sometimes informal, and resulted in costs ranging from $0 to $100 per
                   sample taken. We concluded that APHIS should impose a standardized
                   contract specifying the quality of work required and the costs the
                   Government is willing to incur for it.

                   The problems disclosed during our review, if not corrected, may negatively
                   impact the effectiveness of USDA’s overall BSE surveillance program,
                   impair its ability to perform risk assessments and program evaluations, and
                   reduce the credibility of any assertion regarding the prevalence of BSE in the
                   United States. These are complex challenges USDA needs to address as it
                   moves forward with implementation of its expanded BSE surveillance
                   program.

                   This audit was coordinated with the Office of Inspector General’s (OIG)
                   Investigations Division. OIG conducted two investigations to determine
                   whether employees of USDA and/or of the slaughter establishment misled or
                   provided false information concerning the identification of the BSE-positive
                   cow. In addition, OIG verified the procedures used by USDA and the
                   slaughter establishment to maintain the integrity of the brain tissue sample
                   from the slaughter establishment through delivery to the National Veterinary
                   Services Laboratories (NVSL) in Ames, Iowa. OIG also investigated the
                   circumstances surrounding the animal displaying possible CNS symptoms
                   that had not been tested in Texas. The results of these investigations will be
                   reported under separate cover.

Recommendations
In Brief           We are recommending that APHIS fully disclose the assumptions that it
                   made in designing its sampling plan, and that it clarify the limitations that
                   exist in the data it will collect. We are also recommending that APHIS
                   implement management controls to ensure that all high-risk animals,
USDA/OIG-A/50601-9-KC                                                                    Page iv
                   including those that test negative for rabies, those that are condemned for
                   CNS symptoms, those that die on the farm from unknown causes, and those
                   meeting the age requirement, are sampled and tested in accordance with
                   USDA policy and the 2004 Surveillance Plan.

                   We are recommending that APHIS expedite its development of a new system
                   to track and report its accomplishments under the expanded surveillance
                   program. We are also recommending that APHIS implement performance
                   measures and a continuous risk assessment to enhance its management of the
                   surveillance program and better assess the program’s effectiveness.

                   Finally, we are recommending that for all State contract laboratories that will
                   perform BSE testing under the new surveillance program and for all meat
                   plants and contractors that will collect test samples, APHIS develop and enter
                   into written agreements that include specific provisions for responsibilities,
                   performance, and reimbursement.

Agency
Response           In their July 30, 2004, written response to the official draft report, APHIS and
                   FSIS were in agreement with the findings and recommendations presented
                   therein. The response provided specific actions the agencies have taken, or
                   plan to take, as well as timeframes for implementing proposed actions for
                   each recommendation. We have incorporated applicable portions of the
                   response, along with our position, in the Findings and Recommendations
                   section of this report. The APHIS and FSIS joint response is included in its
                   entirety (except for the exhibits provided with the response) as exhibit E.

OIG
Position           We concur with APHIS’ and FSIS’ proposed corrective actions and have
                   accepted management decisions for all recommendations.




USDA/OIG-A/50601-9-KC                                                                       Page v
Abbreviations Used in This Report

AMS                           -     Agricultural Marketing Service
APHIS                         -     Animal and Plant Health Inspection Service
AVIC                          -     Area Veterinarian-in-Charge
BSE                           -     Bovine Spongiform Encephalopathy
CALS                          -     Computer Automated Laboratory Systems
CFR                           -     Code of Federal Regulations
CJD                           -     Creutzfeldt-Jakob Disease
CNS                           -     Central Nervous System
CD                            -     Compact Disk
ELISA                         -     Enzyme Linked Immune Sorbent Assay
FSIS                          -     Food Safety and Inspection Service
FY                            -     Fiscal Year
GAO                           -     Government Accountability Office (formerly the General
                                     Accounting Office)
IHC                           -     Immunohistochemistry
IR Subcommittee               -     International Review Subcommittee
NAHMS                         -     National Animal Health Monitoring System
NASS                          -     National Agricultural Statistics Service
NVSL                          -     National Veterinary Services Laboratories
OCFO                          -     Office of the Chief Financial Officer
OIE                           -     Office International des Epizooties
OIG                           -     Office of Inspector General
RA                            -     Reference Assistance
SOP                           -     Standard Operating Procedures
TSE                           -     Transmissible Spongiform Encephalopathy
USDA                          -     U.S. Department of Agriculture
VS                            -     APHIS Veterinary Services




USDA/OIG-A/50601-9-KC                                                               Page vi
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. BSE Surveillance Program – Implementation Plans Not Final and Many Questions
                 and Challenges Remain ............................................................................................. 6

        Finding 1             USDA Needs to Clarify Its Goals of Detecting and Measuring the
                              Maximum Prevalence of BSE in the Adult Cattle Population ................................ 7
                                  Recommendation No. 1.................................................................................. 13
                                  Recommendation No. 2.................................................................................. 14
        Finding 2             USDA Faces Significant Challenges in Estimating a Maximum BSE
                              Prevalence Rate for High-Risk Cattle ................................................................... 15
                                  Recommendation No. 3.................................................................................. 24
                                  Recommendation No. 4.................................................................................. 25
                                  Recommendation No. 5.................................................................................. 26
                                  Recommendation No. 6.................................................................................. 27
                                  Recommendation No. 7.................................................................................. 29
                                  Recommendation No. 8.................................................................................. 30

    Section 2. Program Management and Administration................................................................ 32

        Finding 3             APHIS’ Sampling and Data Collection Processes Raise Questions About
                              the Integrity of Surveillance Data ......................................................................... 32
                                   Recommendation No. 9.................................................................................. 36
                                   Recommendation No. 10................................................................................ 36
                                   Recommendation No. 11................................................................................ 37
        Finding 4             APHIS’ Information Technology and Processes Need To Be Upgraded To
                              Perform Adequately Under the New Surveillance Plan........................................ 38
                                   Recommendation No. 12................................................................................ 40
                                   Recommendation No. 13................................................................................ 41
        Finding 5             APHIS Needs to Establish Consistent Terms and Conditions in Agreements
                              With Non-Federal Entities Participating in the Surveillance Program ................. 42
                                   Recommendation No. 14................................................................................ 44
                                   Recommendation No. 15................................................................................ 45
        Finding 6             Performance Measures and Continuous Risk Analysis Is Needed To Better
                              Target and Assess the Effectiveness of USDA’s BSE Surveillance Program ...... 46
                                   Recommendation No. 16................................................................................ 48
                                   Recommendation No. 17................................................................................ 49
USDA/OIG-A/50601-9-KC                                                                                                                   Page vii
                                    Recommendation No. 18................................................................................ 49
                                    Recommendation No. 19................................................................................ 50

General Comments ............................................................................................................................... 51

Scope and Methodology........................................................................................................................ 53

Exhibit A – Sites Visited ....................................................................................................................... 55
Exhibit B – Number of Slaughter/Renderers by State Compared to State Sampling Goals ......... 56
Exhibit C – Live Cows, Adult Slaughter Statistics, and Number of Slaughter/Renderers by
            State Compared to State Sampling Goals ..................................................................... 58
Exhibit D – Condemned by Disease for FY 2003 ............................................................................... 60
Exhibit E – Agency Response to the Draft Report............................................................................. 61




USDA/OIG-A/50601-9-KC                                                                                                                  Page viii
Background and Objectives
Background                    Bovine Spongiform Encephalopathy (BSE), widely known as “mad
                              cow disease,” is a chronic, degenerative disease affecting the central
                              nervous system (CNS) of cattle. Worldwide there have been more than
                              180,000 cases in cattle since the disease was first diagnosed in 1986 in
                              Great Britain. BSE belongs to the family of diseases known as
                              transmissible spongiform encephalopathy (TSE), the causes of which
                              are not fully known. TSE diseases have a prolonged incubation period
                              of months or years and result in a progressive, debilitating neurological
                              illness, which is always fatal. Affected animals may display changes in
                              temperament, such as nervousness or aggression, abnormal posture,
                              decreased milk production, or loss of body weight despite continued
                              appetite. There is no test to detect BSE in a live animal.

                              The Animal and Plant Health Inspection Service (APHIS) leads an
                              interagency effort to monitor BSE.2 Its monitoring program includes
                              sampling the brains of selected cattle for traces of BSE. These
                              surveillance samples include field cases of cattle exhibiting signs of
                              neurological disease, cattle condemned at slaughter for neurological
                              reasons, rabies-negative cattle submitted to public health laboratories,
                              cattle that are nonambulatory, and adult cattle that die on farms. As of
                              September 30, 2003, over 57,000 cattle brains had been examined for
                              BSE or other forms of TSE.

                              The United States has had an active surveillance program for BSE in
                              place since May 1990. More than 250 Federal and State regulatory
                              veterinarians are specially trained to diagnose BSE. The Food Safety
                              and Inspection Service (FSIS) and the Food and Drug Administration
                              are also involved in the surveillance program. Prior to June 1, 2004,
                              FSIS inspectors condemned animals displaying CNS symptoms during
                              ante mortem inspections at slaughterhouses and were required to notify
                              APHIS when testing was warranted.

                              APHIS’ Surveillance Program, 1990–2003

                              The goal of APHIS’ pre-2004 surveillance program was to test enough
                              animals to “allow detection if BSE truly exists at a level of one or more
                              cases per million in the adult cattle population.” The prevalence of

2
  APHIS surveillance programs operate under the authority of the Animal Health Protection Act that became a part
of the Farm Security and Rural Investment Act of 2002 (2002 Farm Bill) effective May 13, 2002. Veterinary
Services (VS) is the division within APHIS that is responsible for protecting and improving the health, quality, and
marketability of the Nation's animals, animal products, and veterinary biologics. This is accomplished through
preventing, controlling, and eliminating animal diseases, and by monitoring and promoting animal health and
productivity. In addition, every State has an area veterinarian-in-charge (AVIC) to meet animal health needs on a
local level and serve as a liaison between the State and Federal Government.
USDA/OIG-A/50601-9-KC                                                                                              Page 1
                              classical Creutzfeldt-Jakob disease (CJD), a TSE disease occurring in
                              human populations, appears to be approximately one in a million
                              worldwide.      It has been hypothesized that other spongiform
                              encephalopathies also might occur in the host populations at the same
                              rate.3

                              Statistical sampling allows data gatherers to collect information from a
                              relatively small group and draw conclusions about the population as a
                              whole. To be scientifically valid, the conclusions must be based on a
                              representative sample of a statistically determined size, such as a
                              random sample. Depending on the size and randomness of the sample,
                              the conclusions (projections) can be expressed in terms of a confidence
                              level.     The United States has an adult cattle population of
                              approximately 45 million. To be 95 percent confident of detecting BSE
                              in a random sample of an adult cattle population of 45 million (and in
                              which detectable BSE occurs at a rate of one in a million, for a total of
                              45 animals), the U.S. Department of Agriculture (USDA) would have
                              to randomly select and test nearly 3 million animals.

                              However, USDA determined that it could conduct a more efficient
                              survey if it focused on the higher-risk population of cattle—
                              nonambulatory cattle and adult cattle with CNS or other clinical signs
                              not inconsistent with BSE. This segment of the cattle population is the
                              most at risk of having BSE.

                              Because there is no data on the exact number of nonambulatory cattle
                              in the United States, APHIS estimated 195,000 per year based on a
                              survey conducted by the American Association of Bovine
                              Practitioners.4 APHIS further assumed that the potential cases of BSE
                              would all be found in the high-risk cattle population. To enable USDA
                              to be 95 percent confident that it would detect at least one case of BSE
                              if 45 animals within the targeted population of 195,000 actually had the
                              disease, APHIS calculated that it needed to test 12,500.

                              First Positive Case of BSE Found in the United States, 2003

                              On December 23, 2003, the Secretary of Agriculture announced that a
                              dairy cow in the State of Washington had tested presumptive positive
                              for BSE (the test was later confirmed positive). The Department took
                              steps to contain the potential spread of the disease by tracing the
                              positive cow to its herd of origin, depopulating animals of interest from
                              identified herds, recalling meat products derived from the positive cow,

3
  Brown, et al., “Bovine spongiform encephalopathy and variant Creutzfeldt-Jakob disease: background, evolution,
and current concerns.” Emerging Infectious Diseases, 2001.
4
  Hansen and Bridges, “A survey description of down-cows and cows with progressive or non-progressive
neurological signs compatible with a TSE from veterinary-client herds in 38 States.” The Bovine Practitioner, 1999.
USDA/OIG-A/50601-9-KC                                                                                             Page 2
                              and issuing a number of regulatory changes related to beef products. In
                              the January 12, 2004, Federal Register, FSIS declared as “specified risk
                              materials”5 certain beef tissues (the brain, skull, eyes, etc.) and their
                              products and banned these products from the human food supply.
                              Also, in response to the positive BSE test, USDA redesigned its
                              surveillance program to expand testing for BSE.

                              USDA’s Expanded BSE Surveillance Program, 2004

                              On December 30, 2003, the Secretary announced that an international
                              scientific review panel, the International Review Subcommittee
                              (IR Subcommittee) of the Foreign Animal and Poultry Disease
                              Advisory Committee, would review USDA’s investigation surrounding
                              the case of BSE. The IR Subcommittee would also consider the scope
                              of policy options and measures being considered to address the BSE
                              situation that existed in the United States and within the broader North
                              American context.

                              On February 2, 2004, the IR Subcommittee issued a report to the
                              Secretary that concluded, “The epidemiological investigation into the
                              origin of the BSE case conforms to international standards, insofar as it
                              could be conducted in the face of the limitations of cattle identification
                              systems in place in North America.” Also, various observations and
                              recommendations were made on the USDA surveillance procedures
                              and policy options being considered. We have incorporated some of
                              the IR subcommittee’s comments into this report where relevant to the
                              issues we are reporting.

                              On March 15, 2004, USDA announced the details of its expanded
                              surveillance effort for BSE in the United States. The primary focus of
                              the enhanced surveillance effort would continue to be to attempt to test
                              the highest-risk cattle, but USDA would greatly increase the number of
                              target animals surveyed and would include a random sample of
                              apparently normal, adult cattle.

                              In its BSE Surveillance Plan, dated March 15, 2004, APHIS
                              re-estimated the number of high-risk cattle in the United States as
                              closer to 446,000, or more than double its original estimate.6 With this
                              new estimate, APHIS officials concluded they would need to test about

5
  9 CFR 310.22(a) defines SRMs as: 1) the brain, skull, eyes, trigeminal ganglia, spinal cord, vertebral column
(excluding the vertebrae of the tail, the transverse processes of the thoracic and lumbar vertebrae, and the wings of
the sacrum), and dorsal root ganglia (DRG) of cattle 30 months of age and older, and 2) the tonsils and distal ileum
(for which removal of the distal ileum must be achieved by disposing of the entire small intestine) of all cattle.
6
  The 446,000 figure comes from three sources: FSIS 2002 data for animals partly or wholly condemned at slaughter
by FSIS, APHIS 2002 data for animal disease investigations conducted by APHIS, and data collected by APHIS
through the National Animal Health Monitoring System on the number and causes of deaths on farms (1996 data for
beef breeding; 2001 data for dairy).
USDA/OIG-A/50601-9-KC                                                                                               Page 3
                             268,500 high-risk animals to be 99 percent confident that at least one of
                             these 268,500 cattle had detectable BSE, assuming that 5 of the
                             estimated 446,000 in the high-risk population had it. By assuming BSE
                             was limited to these high-risk cattle, APHIS concluded it would be
                             99 percent confident that it could detect BSE if its prevalence rate was
                             1 in 10 million. In other words, the goal of the enhanced program was
                             to detect BSE even if there were only five detectable cases in the entire
                             country. The sampling of an additional 20,000 apparently normal
                             animals would come from 40 federally inspected plants that handle
                             about 86 percent of the 6.2 million7 adult cattle slaughtered each year.
                             The carcasses from these animals would be held and not allowed to
                             enter the human food chain until test results showed the samples were
                             negative for BSE.

                             In support of its sampling plan, USDA notes that its pre-2004 plan was
                             in accord with findings by the Office International des Epizooties
                             (OIE), an international animal health organization based in France, and
                             that its new plan has the support of the Harvard Center for Risk
                             Analysis.8

                             USDA planned to test 40,000 animals in fiscal year (FY) 2004 (i.e., by
                             September 30, 2004).        USDA began its increased testing on
                             June 1, 2004. Testing will be conducted at USDA’s laboratory, the
                             National Veterinary Services Laboratories (NVSL), in Ames, Iowa, and
                             a network of 12 contract laboratories around the country.

                             APHIS amended the Code of Federal Regulations (CFR)9 to provide
                             authority for APHIS to collect blood and tissue samples from “listed”
                             slaughter and rendering facilities. The listed facilities must provide
                             space and equipment within their facilities for collection of blood and
                             tissue samples, and allow APHIS, FSIS, or APHIS contractors to take
                             the samples without cost to the Government. However, USDA plans to
                             help defray costs incurred by individuals and entities participating in
                             the surveillance program for such items as transportation, disposal, and
                             storage of carcasses being tested. Moreover, APHIS management
                             asserts that they currently have the regulatory (mandatory) authority
                             necessary to obtain BSE samples at any location the agency determines
                             is essential to the success of the expanded surveillance program. The
                             officials believe that they are currently getting adequate cooperation

7
  In the BSE Surveillance Plan, dated March 15, 2004, APHIS approximates this 6.2 million based on National
Agricultural Statistics Service (NASS) data (pages 10-11). It is consistent with the 6,256,000 slaughtered under
Federal inspection in 2002 per Table 7-13 of NASS publication Agricultural Statistics 2003 (equals 2,607,000 dairy
cows plus 3,051,000 other cows plus 598,000 bulls and stags).
8
  Comments about USDA’s surveillance plan are contained in a March 12, 2004, memorandum to the Deputy
Administrator of APHIS’ VS from officials from the Harvard Center for Risk Analysis.
9
  9 CFR 71.21, as amended March 4, 2004. The CFR was silent as to USDA access to collect samples on farms,
feedlots, auction barns, etc.
USDA/OIG-A/50601-9-KC                                                                                            Page 4
                   from producers and industry; therefore, the agency has chosen not to
                   invoke its mandatory authority at this time.

Objectives         Our objectives were to determine 1) whether the BSE surveillance
                   program objectives, policies, procedures, and management controls in
                   place at the time BSE was identified in Washington State were
                   adequate; and 2) whether the expanded BSE surveillance program will
                   accomplish its intended objectives and has been effectively
                   implemented.




USDA/OIG-A/50601-9-KC                                                                 Page 5
Findings and Recommendations
Section 1. BSE Surveillance Program – Implementation Plans Not Final and Many
Questions and Challenges Remain

                    On March 15, 2004, APHIS, in cooperation with FSIS and the Food
                    and Drug Administration published a plan outlining its objectives for
                    an intensive national BSE surveillance program. According to the plan,
                    “This is a one-time effort to give a snapshot of the cattle population in
                    the United States and help define whether BSE is actually present in the
                    population and if so, at what level. The goal of this plan is to test as
                    many cattle in the targeted high-risk population as possible in a
                    12-18 month period.” Also, the plan incorporates random sampling of
                    clinically normal aged animals at slaughter. APHIS plans to evaluate
                    the results of this effort over this period and determine if other actions
                    are necessary.

                    APHIS has targeted the population of “high-risk” cattle (i.e., those
                    showing disorders of the CNS, nonambulatory cattle, cattle that die on
                    the farm from unknown causes) because it has determined that these
                    cattle are the most likely to have BSE. Cattle that are considered
                    clinically normal are least likely to have BSE. Assuming random
                    sampling, tests from a selection of high-risk cattle will allow APHIS to
                    draw conclusions only about that population. APHIS has estimated a
                    total population of 45 million adult cattle and a high-risk population of
                    446,000. The latter figure was derived partly from APHIS’ own
                    National Animal Health Monitoring System (NAHMS).

                    We reviewed the statistical validity of the BSE sampling and testing
                    program to determine if the plan is designed to enable USDA to
                    achieve the statistical conclusions stated as its desired goals. Our
                    review was limited because implementation plans have not been
                    finalized and APHIS has not yet been able to address some of the
                    questions we have raised. Therefore, our observations and conclusions
                    are based on the March 15, 2004, published BSE surveillance plan, as
                    well as available documents and interviews with various APHIS and
                    FSIS officials. APHIS also provided us with an unpublished, updated
                    BSE surveillance plan as of May 25, 2004, which we considered in
                    finalizing this report.

                    We recognize that there are many challenges that the Department needs
                    to address in implementing an effective and supportable BSE
                    surveillance program. We offer the following observations and
                    preliminary conclusions for the Department to consider as it moves
                    forward with implementation.


USDA/OIG-A/50601-9-KC                                                                        Page 6
Finding 1                     USDA Needs to Clarify Its Goals of Detecting and Measuring
                              the Maximum Prevalence of BSE in the Adult Cattle
                              Population

Critical                      In its BSE surveillance program, APHIS attempts to focus on the
Assumptions in the            higher-risk population of cattle—cattle with CNS clinical signs or signs
Surveillance Plan             not inconsistent with BSE, nonambulatory cattle, and cattle that died on
Will Result in
                              the farm from unknown causes. An objective of the surveillance plan is
Questionable
Estimates of BSE              to collect samples from as many adult cattle from the high-risk
Prevalence                    population as possible in 12 to 18 months while ensuring there is
                              statistically appropriate geographical representation in the United
                              States. More specifically, APHIS assumes all BSE-detectable cattle are
                              in this high-risk population and states that if a total of 201,000 samples
                              are collected, the level of sampling will detect BSE at the rate of
                              1 positive in 10 million adult cattle at a 95 percent confidence level. If
                              a total of at least 268,500 samples are collected, this level of sampling
                              will detect BSE at the same rate at a 99 percent confidence limit.

                              Our review found that APHIS has not clearly communicated the
                              limitations contained in the critical assumptions on which the
                              surveillance plan is based. These critical assumptions have a
                              significant impact on the surveillance program’s ability to meet its
                              announced objectives. Full disclosure of these assumptions and their
                              impact on any statistical representations made of the prevalence of BSE
                              in the cattle population is necessary so that the data will not be
                              misinterpreted by the public, industry, or U.S. trading partners.

Unstated                      The BSE sampling methodologies are not based on known selection
Limitations in the            probabilities, even though the plan’s statistical projections assume these
Sample Selected               are known and equal. The more these selection probabilities differ
                              across cattle in the population, the less reliable the statistical
                              projections will become. There are several reasons these selection
                              probabilities are not equal for cattle in the targeted high-risk
                              population, chief among which is the voluntary nature of participation;
                              producers and renderers are not required to participate. Nevertheless,
                              the statistical projections assume each animal has the same non-zero
                              probability of being selected for testing.

                              APHIS amended the CFR10 to provide authority for APHIS to collect
                              blood and tissue samples from “listed” slaughter and rendering
                              facilities. A listed facility must provide space and equipment on its
                              premises for collection of blood and tissue samples, and it must allow
                              APHIS, FSIS, or APHIS contractors to take blood and tissue samples
                              from livestock at the facility without cost to the Government.
10
     9 CFR 71.21, as amended March 4, 2004.
USDA/OIG-A/50601-9-KC                                                                                  Page 7
                     However, because USDA has determined that the surveillance program
                     should be voluntary to encourage participation, it will not enforce this
                     regulation at this time, except for federally-inspected slaughter
                     facilities.

                     While the voluntary aspect of the program overrides the possibility of a
                     truly random sample of cattle, APHIS recognizes that randomized
                     sampling is not a viable approach for sampling the high-risk
                     population. According to APHIS, the potential for sampling bias exists
                     because the size and distribution of the target population is only
                     approximated. This bias could be reduced if more were known about
                     this population. Consequently, APHIS is conducting a national
                     probability survey to study the distribution of nonambulatory cattle.
                     APHIS officials have also stated that the effect of nonrandom sampling
                     is somewhat negated by the attempt to test all available animals (a
                     process known as a “census”). In written comments provided to us on
                     June 24, 2004, APHIS officials stated that “if no [BSE] cases are
                     detected then the exact confidence we [APHIS] have that the disease is
                     below the design level will have to be based on the assumption that the
                     animals tested are representative of the high-risk population as if they
                     were randomly sampled.”

                     Due to inherent problems with defining, obtaining, and testing either a
                     census or a random sample of high-risk cattle, USDA will face
                     significant challenges when using its anticipated statistical projections.
                     As designed, these assume that the selection probabilities of all truly
                     high-risk cattle are known and equal. If APHIS restricts the high-risk
                     population to those samples voluntarily submitted, whether or not it
                     tests all of them or a random sample of them, there is reduced
                     assurance that BSE will be detected, and any statistical projection
                     regarding the high-risk group may be unreliable.

Unstated             The expanded surveillance plan emphasizes the confidence level of
Limitations in the   detecting at least one case of BSE, if it exists at the assumed prevalence
Confidence of        level of five cases of BSE. However, the plan does not address the fact
Projections          that if only one BSE case is detected in the target population, the
                     confidence level of maximum prevalence will be degraded. For
                     example, assuming all other assumptions apply, the 99 percent
                     confidence level will drop to 91.5 percent if one case of BSE cattle is
                     identified. If two cases are detected, the confidence level falls to
                     68.6 percent; and with three cases, it falls to 34.0 percent. Therefore, if
                     cases of BSE are detected, the test results will indicate either a
                     significantly lower confidence level or a significantly higher maximum
                     BSE prevalence level than those implied in the March 15, 2004, plan.

                     In written comments provided to us on June 24, 2004, APHIS officials
                     stated that they recognize that if BSE is detected in any of the tests,
USDA/OIG-A/50601-9-KC                                                                          Page 8
                    USDA will most likely respond immediately with major changes in the
                    surveillance procedures. APHIS officials agree the March 15, 2004,
                    expanded surveillance plan will need to be rewritten if additional BSE
                    cases are detected.

Unstated            APHIS has developed sample allocations for each State to provide the
Limitations in      appropriate geographic distributions of sample collections. The
Obtaining a         estimates are based on cattle population data derived from National
Geographic          Agricultural Statistics Service (NASS) surveys and weighted for some
Representation of   assumed differences in death losses between dairy and beef cattle
U.S. Cattle         populations. However, APHIS views these allocations as flexible.
                    That is, if the numbers collected from some States are below the
                    allocated amounts, additional samples may be collected from other
                    States. APHIS intends to evaluate this data based on the total number
                    of samples collected and apply the results to the U.S. cattle population.
                    This procedure would bias the sample if APHIS tests more animals
                    from some States to make up for testing too few animals from other
                    States.

                    The potential for this bias is exacerbated by a subtle conflict between
                    the stated objectives of testing “as many cattle in the targeted
                    population as possible” and “ensuring representation of the adult cattle
                    population.” Obtaining as many samples as possible in one area
                    increases the selection probabilities there relative to those in other
                    geographic areas. APHIS has no contingency plans if geographical
                    targets are not obtained.

                    Challenges in obtaining a geographical distribution of the cattle
                    population can be demonstrated by the allocations established and
                    samples obtained from States in the Northwest Region. Cattle are
                    frequently shipped across regional boundaries for slaughter or
                    rendering in adjoining States. Under procedures in effect prior to
                    June 1, 2004, these cases generally would have been credited to the
                    State or region where the slaughter or rendering plant was located.
                    APHIS and NASS records show that some States, such as Montana and
                    Oregon, were substantially undersampled (a total of three samples in
                    FY 2003) in relation to their estimated target cattle population
                    (3.4 percent of the Nation). However, we could not determine or
                    estimate the number of samples that were incorrectly allocated to
                    individual regions where the cattle did not originate because the origin
                    of the cattle had not always been identified (see Finding 3).




USDA/OIG-A/50601-9-KC                                                                       Page 9
                        Figure 1: Distribution of Cattle Tested in the Northwest Region, 2002-2004
                        State         Cattle           Samples      Samples     Samples      State
                                      Population       FY 2002      FY 2003     FY 2004      Goal
                                      (Beef and                                 (through     FY 20042
                                                   1
                                      Dairy Cows)                               Feb. 2004)
                        Idaho                900,000          143            8          80        8,939
                        Montana            1,490,000            1            1           0        5,076
                        Oregon               720,000           26            2           5        4,038
                        Utah                 440,000          162          508         238        2,724
                        Washington           510,000        1,906          264         588        5,161
                        1
                        Source: NASS 2004.
                        2
                        Source: Examples of Geographic Distributions of Sample Collections for the BSE Surveillance Plan.
                        Based on a sample goal of 268,500.


                   Prior to June 1, we noted the sample collection process was
                   concentrated in a few slaughter establishments and renderers in a few
                   States. During FYs 2002, 2003, and 2004 (through February 2004),
                   four States (Wisconsin, Georgia, Missouri, and Minnesota) collected
                   36 percent of the Nation’s samples, yet these States had only about
                   17 percent of the adult beef and dairy cows. For example, Georgia had
                   only 1.3 percent of the Nation’s adult dairy and beef cows, but during
                   FYs 2002, 2003, and 2004, Georgia collected almost 10 percent of the
                   samples collected for the Nation (see Figure 2). California collected
                   only 8.3 percent of the Nation’s samples, but California has over
                   12 percent of the Nation’s adult dairy and beef cows.

                            Figure 2: Percentages of Sampling in Four States
                                         FY 02-04 Sample State Goal
                               State       Percentage    Percentage Difference
                            Wisconsin                  13.5%             8.6%           4.9%
                            Georgia                     9.7%             1.3%           8.4%
                            Missouri                    6.4%             3.4%           3.0%
                            Minnesota                   5.9%             3.6%           2.3%
                            Total                      35.6%            16.9%          18.7%

                   During FY 2003, over half of the Nation’s samples came from seven
                   entities (six slaughter facilities and one 3D/4D processor (dead, dying,
                   disabled, and diseased)) which submitted from 56 to over 99 percent of
                   the samples from their States. Nationwide, these entities submitted
                   51 percent of the samples; their resident States had only 34 percent of
                   the adult beef and dairy cows.

                   The surveillance plan needs to be clarified to explain that the data
                   gathered may not represent an “appropriate statistically geographical
                   representation of the adult cattle population in the United States.”
                   Therefore, any references to the prevalence of BSE may need to be
                   qualified.



USDA/OIG-A/50601-9-KC                                                                                             Page 10
Unstated                        The statistical projections assume that all the BSE-positive cattle are
Recognition of                  part of the high-risk population, even though the Europeans detected
Where BSE May Be                about 290 cases (during 2002) in healthy animals taken to slaughter.
Found
                                OIG and APHIS agree that BSE has been detected in clinically normal,
                                adult cattle but that its prevalence in the population tends to be much
                                less than that for high-risk cattle. However, the number of normal
                                cattle in inventory greatly exceeds the number of high-risk cattle.
                                Combining these relationships, any attempt to extrapolate the high-risk
                                adult cattle test results to the entire adult cattle population yields a
                                significantly higher estimated prevalence rate than if USDA assumes
                                all detectable BSE is limited to the high-risk population. Comments
                                made by the Harvard Center for Risk Analysis refer to Swiss data that
                                suggest that the average detectable prevalence for normal cattle is only
                                one-eighth as much as high-risk cattle. The adult cattle population in
                                the United States (45 million) is about 100 times larger than the
                                targeted high-risk population (446,000). Thus, if the plan’s statistical
                                projection (1 in 10 million with 99 percent confidence level) was based
                                on five maximum detectable cases in the 446,000 high-risk population,
                                this can extrapolate to about 67.5 [5 high-risk + 62.5 normal adults (5 ×
                                1/8 × 100)] maximum detectable cases in the 45 million adult cattle
                                population, or about 15 in 10 million11.

                                The plan needs to be clarified to remove the misconception that BSE
                                will appear in only high-risk animals.

Unstated Limitations            The statistical projections implicitly assume that all negative BSE test
in Test Results for             results are accurate. However, the Harvard Center for Risk Analysis
Normal Cattle                   estimated that BSE tests yield a 92-percent false negative rate for
                                “normal adult” cattle because the disease is undetectable in early stages
                                (e.g., for every 8 clinically healthy adult cattle with the disease
                                92 others have the disease, but it is not yet in a detectable stage).12 The

 11
    Such extrapolations are sensitive to numerous assumptions including (1) the number of high-risk cattle tested,
 (2) the number of normal adult cattle, and (3) the ratio of BSE prevalence of normal adult to high-risk cattle. The
 extrapolated maximum detectable BSE cases decreases as (1) increases, but this extrapolated maximum increases as
 items (2) or (3) above increase. Like the Harvard Center, we use the 1 to 8 normal adult to high-risk prevalence
 ratio, which is derived from Table 1 of “Trends in prevalence of BSE in Switzerland based on fallen stock and
 slaughter surveillance” (The Veterinary Record, (March 16, 2002, pages 347-348), by Doherr, M. G., A. R. Hett, C.
 H. Cohen, R. Fatzer, J. Rufenacht, A. Zurbriggen, and D. Heim). While there are multiple sources for deriving
 normal to high-risk prevalence ratios, we present this example primarily to contrast the March 15, 2004, plan’s
 assumption of no detectable BSE in the normal adult population with a different assumption based on one of the
 approaches suggested by the Harvard Center for Risk Analysis. Also, NASS officials noted in their comments on
 APHIS’ surveillance plan that it is inappropriate to directly associate a statistical confidence level with such
 extrapolations. APHIS noted that when using other assumptions (such as non-Swiss European data) in the same
 formula, the extrapolated maximum BSE prevalence is reduced.
 12
    In contrast, it may be reasonable to assume a low, if not zero false negative rate for cattle exhibiting clinical signs
 of BSE (“Comments on USDA bovine spongiform encephalopathy (BSE) surveillance plan,” Harvard Center for
 Risk Analysis, March 12, 2004, page 4).
 USDA/OIG-A/50601-9-KC                                                                                                  Page 11
                      statistical projections in the plan significantly understate the maximum
                      prevalence of total BSE, because they are based on only detectable
                      BSE. Extending the previous example and assuming that the estimated
                      maximum prevalence of detectable BSE is roughly 62.5 cases in
                      normal adult cattle, this extrapolates to 781.25 (62.5 ÷ .08) total BSE
                      cases in normal adult cattle.

Unstated              Under the expanded surveillance program, testing of clinically normal
Limitations in        adult cattle (20,000) has little, if any, statistical significance and may
Selecting a Small     inadvertently create a false impression of the actual BSE incidence rate
Sample of Normal      in these animals, due to the deceptively small sample size relative to the
Cattle                extraordinarily low expected prevalence of detectable BSE in this
                      population, which is due to a combination of a low expected prevalence
                      of total BSE and the high expected false negative rate for these cattle.

                      The IR Subcommittee, in reviewing USDA’s BSE Surveillance Plan,
                      recognized that the testing of all cattle slaughtered for human
                      consumption is scientifically unjustified, in terms of protecting both
                      human and animal health. However, they recommended that a random
                      sample of healthy slaughter cattle over 30 months should be strongly
                      considered to support the overall surveillance system and encourage
                      reporting at the farm level.

                      At the time of our review, details of how APHIS plans to conduct
                      surveillance of clinically normal adult cattle were not available.
                      APHIS officials have advised us in written comments on
                      June 24, 2004, that they are not testing these 20,000 animals to
                      determine if BSE exists nor to statistically project the maximum BSE
                      prevalence rates in normal cattle. Instead, the primary purpose of these
                      tests is “to deter producers who might send potentially infected cattle
                      into the normal slaughter process.”

                      This objective, however, conflicts with published goals, as well as press
                      releases by APHIS stressing the importance of testing adult, aged
                      animals. According to published documents, APHIS officials stated
                      that this population of animals is being tested because the disease has a
                      very long incubation period, and APHIS wants to target its testing of
                      animals born before the feed ban, which went into place in
                      August 1997.

Unstated              APHIS may have underestimated the number of adult cattle “dying on
Limitations in        farms from unknown causes” or those with symptoms “not inconsistent
Estimating the Size   with BSE.” This is because of the lack of specificity in the National
of the High-Risk      Animal Health Monitoring System (NAHMS) reported data on known
Population            causes of death (especially regarding beef breeding cattle). This
                      concern is important because USDA may inadvertently overstate the

USDA/OIG-A/50601-9-KC                                                                        Page 12
                     proportion of the high-risk population tested, and the reliability of any
                     related statistical projection.

                     In determining the high-risk population, APHIS does not consider a
Some Unstated
Limitations in the
                     risk-based determination of country of origin of BSE-positive animals.
Levels of Risk in    A 2001 Harvard Risk Assessment observed that the United States
Targeted Animals     imports millions of cattle each year from Canada and Mexico.
                     According to the Harvard study, approximately 80 percent of the cattle
                     imported are slaughtered shortly after arrival. We discussed with
                     APHIS officials the possibility of targeting for testing animals from
                     those countries where BSE has been detected. According to an APHIS
                     official, additional surveillance in specific areas of the United States,
                     based on the country of origin, is not warranted, because imported
                     cattle that have not been slaughtered shortly after importation have
                     already been dispersed beyond the geographic areas where they were
                     initially received. These cattle would be available for sampling
                     selection under the expanded surveillance program.

                     As the surveillance program moves forward and supportable data
                     regarding the cattle population and testing results are gathered, USDA
                     should consider a risk assessment to target limited resources towards an
                     approach that provides increased assurance that BSE can be detected
                     and is not prevalent in the United States (see Finding 6).

                     APHIS needs to fully disclose the assumptions made in the design of its
                     surveillance program and the limitations in its projections of the
                     prevalence of BSE in the United Sates. Full disclosure is necessary to
                     avoid misrepresenting the data and to minimize the risk of
                     misinterpretation by the public, industry, or U.S. trading partners.

Recommendation No. 1

                     Clarify the goals and objectives of the BSE surveillance program.
                     Fully disclose the assumptions made in estimating the prevalence of
                     BSE in the United States and the limitations on using the data.

                     Agency Response.

                     APHIS agreed that additional discussion and clarification of these
                     points would contribute to public understanding of its efforts (see
                     exhibit E for the complete response). Unlike the case with many other
                     animal diseases, APHIS recognized that science has yet to fully
                     understand all aspects of BSE and that reasonable opinions differ in the
                     scientific community. APHIS will prepare a more detailed explanation
                     of the BSE surveillance program objectives and assumptions. This
                     paper will also include some discussions of various options for
                     extrapolating or inferring estimated prevalence rates in broader
USDA/OIG-A/50601-9-KC                                                                      Page 13
                   populations. APHIS will complete this paper, and post it on the APHIS
                   website by August 31, 2004. The paper will address specific concerns
                   and issues raised by the audit, including:

                   -    that critical assumptions in the surveillance plan could result in
                        questionable estimates of BSE prevalence,
                   -    any limitations in the sample selected,
                   -    any limitations in the confidence of projections,
                   -    any limitations in obtaining a geographic representation of U.S.
                        cattle,
                   -    recognizing that BSE might be found in animals not in the
                        surveillance plan’s target population,
                   -    limitations inherent in testing normal cattle, including a small
                        sample size,
                   -    difficulties in estimating the size of the high-risk population, and
                   -    uncertainty in determining the levels of risk in targeted animals.

                   APHIS will complete final action on this recommendation as described
                   by August 31, 2004.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 2

                   Develop contingency plans that address how APHIS will continue to
                   implement the provisions of its expanded BSE surveillance plan if one
                   or more States are unsuccessful in reaching their sampling goals.

                   Agency Response.

                   APHIS agreed with this recommendation and recognized that it must
                   obtain adequate representative samples from all parts of the country.
                   APHIS noted the political boundaries of any given State may be less
                   important than how the cattle in that State move through the
                   surrounding region where practices are common.

                   APHIS actions included: 1) APHIS field personnel in each State
                   worked with industry and State personnel to estimate the number of
                   samples that it likely could obtain in that State, 2) APHIS created a
                   database to capture data to allow for ongoing analysis throughout the
                   surveillance effort with the capability to analyze data at all levels, and
                   3) planned to analyze collected data throughout the life of the program
                   with significant deviations to be reported and addressed.



USDA/OIG-A/50601-9-KC                                                                     Page 14
                              APHIS noted that if the ongoing analysis determines that it will fall
                              short in certain States or regions, it will invoke a variety of outreach
                              mechanisms and will engage in an appropriate action plan depending
                              on the situation. APHIS Legislative and Public Affairs staff has
                              planned a followup outreach campaign using advertisements, radio
                              spots, and other marketing efforts. These will also target any areas in
                              which APHIS may not be obtaining the desired number of samples.

                              Specific one-time actions as described will be completed by
                              August 31, 2004.

                              OIG Position.

                              We accept the management decision.


Finding 2                     USDA Faces Significant Challenges in Estimating                                       a
                              Maximum BSE Prevalence Rate for High-Risk Cattle

Inherent                      Identifying the universe of high-risk cattle and developing detailed
Problems With                 procedures for obtaining samples is critical to the success of the BSE
Identifying the               surveillance program. As discussed in Finding 1, there are inherent
High-Risk                     problems with identifying the high-risk cattle population because the
Population and                program is voluntary. Also, there may be significant uncertainty
Testing Samples               regarding whether weakened high and low-risk cattle condemned post
Need To Be                    mortem, restricted,13 or passed after trim,14 at FSIS-inspected slaughter
Addressed                     facilities should be sampled.15 This uncertainty is due to the inherent
                              lack of obvious criteria for distinguishing diseases or injuries that cause
                              symptoms not inconsistent with BSE from those diseases or injuries
                              that do not. Such lack of distinction may blur the focus on this portion
                              of the designated high-risk population by potentially excluding truly
                              high-risk cattle or including truly low-risk cattle. This in turn may
                              ultimately distort the projected maximum BSE prevalence rate or
                              reduce the chances of detecting BSE, if it exists.



13
    Any meat or meat food product that has been inspected and passed, but cannot be released for human
consumption until it has been subjected to required treatment, such as refrigeration, heating, cooling, or processed
into a comminuted (pulverized) or otherwise ground product or processed into small pieces.
14
   After trimming adulterated portions of the carcass, this is the unadulterated portion which passed inspection.
15
   For the purpose of developing the targeted high-risk cattle population, APHIS included about 164,000 injured and
3,000 emaciated adult cattle that were either condemned post mortem or passed after trim by FSIS (in 2002).
APHIS has acknowledged that this group would include animals with injuries or emaciation that are not related to
BSE (i.e., bruising due to rough handling or a lesion associated with an old injury). APHIS and FSIS believe that
since FSIS began condemning all nonambulatory disabled cattle on ante mortem inspection (starting on
January 12, 2004) that some of those cattle previously passed after trim or condemned post mortem due to injuries
or emaciation would currently be condemned ante mortem or not presented for slaughter. According to APHIS
officials, they have no plans to sample cattle condemned on post mortem inspection or passed after trim, at this time.
USDA/OIG-A/50601-9-KC                                                                                              Page 15
                                During our limited fieldwork to determine how BSE surveillance was
                                operating prior to June 1, 2004, we identified several operational
                                weaknesses that can have an adverse impact on the surveillance
                                program, if controls are not in place and if detailed operational
                                procedures are not established. The surveillance program has been
                                designed to target nonambulatory cattle, cattle showing signs of CNS
                                disease (including cattle testing negative for rabies), cattle exhibiting
                                signs not inconsistent with BSE, and dead cattle. We found that cattle
                                condemned at slaughter for exhibiting CNS symptoms were not always
                                tested, and that brain samples from cattle testing negative for rabies
                                were not always submitted for BSE testing. This occurred because of
                                1) insufficient monitoring of slaughter data to ensure CNS animals
                                were sampled, 2) lack of effective coordination between FSIS and
                                APHIS, and 3) lack of formalized agreements with non-Federal
                                laboratories involved in rabies testing. In addition, we were unable to
                                evaluate how successful APHIS will be in collecting samples from
                                cattle that “died on the farm,” because detailed procedures for such
                                sampling did not exist and no testing information was collected to
                                identify this targeted group.

                                Cattle condemned at slaughter plants for CNS symptoms were not
Cattle With CNS
                                always tested for BSE. Cattle in this targeted high-risk population were
Symptoms Were
Not Always Tested
                                not always sampled due to confusion in testing requirements and lack
                                of coordination between FSIS and APHIS. This is especially
                                significant because there are only a small number of cattle identified
                                each year with CNS symptoms and it is critical that as many cattle as
                                possible be tested. The cattle were not sampled, in part, due to
                                differing directions in FSIS and APHIS inspection and sampling
                                procedures.

                                OIE procedures16 provide that surveillance programs should focus on
                                the subpopulation containing cattle displaying clinical signs compatible
                                with BSE. These clinical signs include those animals displaying
                                progressive neurological abnormalities without signs of infectious
                                illness.

                                Between FYs 2002 and 2004 (through February 2004), FSIS
                                condemned 680 cattle of all ages due to CNS symptoms. About 357 of
                                these could be classified as adult. We could validate that only
                                162 were tested for BSE (per APHIS records).




16
     Surveillance and Monitoring Systems for Bovine Spongiform Encephalopathy, Articles 3.8.4.1 and 3.8.4.2.
USDA/OIG-A/50601-9-KC                                                                                          Page 16
                         Figure 3. Cattle Condemned vs. Cattle Tested
                                    Adult Cattle        Total Cattle                             *Samples Tested
                                    Condemned for       Condemned for                            Showing Clinical
                           Year     CNS Symptoms        CNS Symptoms By                          Sign(s) of CNS per
                                    By FSIS             FSIS                                     APHIS Database
                           2002             135                 285                                        37
                           2003             133                 266                                        63
                           2004             89                  129                                        62
                           Total            357                 680                                       162
                        * Number shown is the number of samples tested that originated from slaughter facilities (samples
                        from farm locations and rendering companies are not included). FY 2004 statistics are through
                        February 2004.


                   Our field visits to eight slaughter plants reporting condemnations for
                   CNS and contacts with APHIS area veterinarians-in-charge (AVIC)
                   disclosed that there were weaknesses in reporting CNS animals by
                   FSIS and in obtaining the samples by APHIS. Figure 4 shows the low
                   testing numbers for four of the eight plants visited and the reasons tests
                   were not taken. Noticeably, the age of the animal was most frequently
                   offered as a reason.

                       Figure 4: Cattle Condemned Exceeded Cattle Tested, 2003-2004
                                            Cattle        Cattle Tested     Cattle                             Reasons
                                            Condemned     for BSE by        Not                                Cattle
                                            for CNS by    APHIS             Tested                             Not
                    Plant                   FSIS                                                               Tested
                    A                                   9               0         9                                1/
                    B                                  61               2        59                                2/
                    D                                  48               7        41                                3/
                    E                                   2               1         1                                4/
                    Totals                           120               10       110
                     1/ FSIS Inspectors did not believe they were required to report cattle to APHIS for testing.
                     2/ It was APHIS’ policy not to sample animals younger than 24 months of age. Records were not
                     available, however, to confirm the age of the animals. In one case, APHIS could not locate
                     transportation for the suspect animal. In another case, APHIS personnel were not available to take a
                     sample. In a third case, the FSIS inspector was not aware of the requirement for notifying APHIS when
                     a cow was condemned for CNS.
                     3/ It was APHIS’ policy not to sample animals younger than 24 months of age. Records were not
                     available, however, to confirm the age of the animals. In one case, APHIS did not have personnel
                     available to take a sample on the day the cow was reported by FSIS.
                     4/ FSIS records did not explain why this animal was not sampled; there was no record of referral for
                     testing.


                   We also identified problems with inspection data reported by FSIS.
                   Inspectors at three of the eight plants we visited appeared to overstate
                   CNS condemnations significantly enough to impact national statistics.
                   One facility reported 35 CNS condemned cattle in FY 2003 (13 percent
                   of the national total), but its inspection records did not show that the
                   cattle were condemned for CNS. The inspector told us that the count of
                   35 may have included some cattle condemned for reasons other than
                   CNS. He said there were only about five cattle condemned for CNS
                   symptoms in FY 2003.



USDA/OIG-A/50601-9-KC                                                                                                       Page 17
                              APHIS Veterinary Services (VS) Memorandum No. 580.16, dated
                              June 11, 1997, recognized the disparity in the number of cattle
                              condemned by FSIS for CNS signs and the number of tests for BSE
                              conducted by APHIS. The memorandum also states that “based on
                              information provided by FSIS, the number of adult cattle (2 years of
                              age or greater) condemned at slaughter due to CNS signs is much
                              greater than the number whose brains have been collected for testing.
                              It is essential that brain specimens be collected from adult cattle
                              condemned for CNS signs as part of our national surveillance of BSE.”

                              We could find no further directives from APHIS or FSIS on actions
                              necessary to resolve this disparity until the media disclosure of an
                              untested cow exhibiting possible CNS signs in April 2004. Shortly
                              after that disclosure, APHIS and FSIS issued a joint instruction, FSIS
                              Notice 28-04 (dated May 20, 2004), which stated that all animals
                              condemned for CNS clinical symptoms would be sampled for BSE,
                              regardless of the age of the animal. FSIS will also sample all animals
                              condemned during ante mortem inspection except for veal calves
                              weighing less than 400 pounds.

                              FSIS and APHIS need to develop sufficient management controls to
                              ensure this policy is followed.

USDA Needs To                 A high priority population, rabies-negative samples, has not been
Increase Testing of           adequately pursued for BSE testing. This target group is important to
Rabies-Negative               USDA’s assertions regarding the prevalence of BSE in the United
Brain Samples                 States because rabies cases exhibit clinical signs not inconsistent with
                              BSE, and a negative rabies test means the cause of the signs has not
                              been diagnosed.      Public health and State veterinary diagnostic
                              laboratories did not always submit rabies-negative samples for BSE
                              testing because there was no formal mechanism in place to routinely
                              submit samples for BSE testing. APHIS records showed only limited
                              numbers of rabies-negative cases have been submitted for BSE
                              testing.17

                              The March 15, 2004, expanded BSE Surveillance Plan states that CNS
                              signs and/or rabies-negative cases are part of the target population and
                              those samples will be collected from public health laboratories. There
                              are approximately 35 U.S. laboratories accredited by the American
                              Association of Veterinary Laboratory Diagnosticians and an
                              undetermined number of other State, regional, and local laboratories
                              that perform rabies testing. We identified that APHIS obtained
                              rabies-negative samples from 23 States during FY 2003 and from

17
   For FYs 2002, 2003, and 2004 (through February 2004), NVSL received 170, 133, and 45 rabies-negative
samples, respectively. APHIS officials noted for that period they were only interested in testing adult cattle with
rabies-negative clinical signs.
USDA/OIG-A/50601-9-KC                                                                                           Page 18
                   10 States during FY 2004 (through February 2004). We also noted
                   that, at the time of our fieldwork, APHIS had generally not executed
                   any formal agreements with these non-Federal laboratories to provide
                   for the routine referral of rabies-negative samples for BSE testing.

                   A NVSL official said rabies-negative cases are one of the most
                   important sources for BSE testing. He said that APHIS needs to work
                   harder to get rabies-negative samples because BSE and rabies
                   symptoms are so similar. He also said the program is voluntary;
                   APHIS does not have any authority over public health and State
                   veterinary diagnostic laboratories.

                   We interviewed officials at five laboratories that test for rabies. Those
                   officials confirmed they are not required to submit rabies-negative
                   samples to APHIS for BSE testing. A South Dakota laboratory official
                   said they were not aware they could submit rabies-negative samples to
                   APHIS for BSE testing. A laboratory official in another State said all
                   rabies-negative cases were not submitted to APHIS because BSE was
                   “not on their radar screen.” Officials from New York, Wisconsin,
                   Texas, and Iowa advised they would not submit samples from animals
                   they considered too young. Four of the five States contacted defined
                   this age as 24 months; Wisconsin defined it as 30 months. Texas
                   officials also advised that they do not always have sufficient tissue
                   remaining to submit a BSE sample.

                   The following table shows the proportion of rabies-negative samples
                   that were not sent for BSE testing from the laboratories within the five
                   States we contacted.
                          Figure 5: Rabies-Negative Tests Not Sent for BSE Testing

                                                         Negative-                     Not
                                                          Rabies      Sent for       Sent for
                         State            Time Period     Tests       Testing        Testing
                         Iowa            FY 02-03           175          2             173
                         Wisconsin       FY 02-04           116          8             108
                         South Dakota    FY 01-04           81           0             81
                         Texas           FY 03              108          29            79
                         New York        FY 03              106          55            51
                         Total                              586          94            492

                   As of June 1, 2004, APHIS has not provided us with any detailed plans
                   on how samples for this targeted high-risk group will be obtained.




USDA/OIG-A/50601-9-KC                                                                           Page 19
Process for                   We were unable to determine how APHIS plans to obtain samples from
Obtaining Samples             the targeted high-risk population known as “cattle that died on the
From Animals That             farm.” Identifying this target group and obtaining representative
“Died on the Farm”            samples will be a significant challenge for USDA because of the
Has Not Been                  inherent problems with obtaining voluntary compliance and
Developed
                              transporting the carcasses for testing. Also, we could not determine if
                              samples from this targeted group have been obtained in the past (this
                              category was not included on VS Form 10-4, Specimen Submission).

                              According to the NVSL database, 2,818, 3,107, and 2,749 samples
                              were shown as “dead” for FYs 2002, 2003, and 2004 (through
                              February 2004), respectively. We noted “died on farm” was sometimes
                              listed in the Additional Data section of the form, but that information
                              was not incorporated into the database. For example, we noted that one
                              submitter in Mississippi had preprinted “died on farm” on his
                              submission forms. Those animals were listed as “dead” in the NVSL
                              database.

                              Identifying truly high-risk cattle that die on the farm may be
                              complicated by the reluctance of producers to submit them and the
                              motivation to mischaracterize low-risk carcasses as “high risk” since
                              only the latter may qualify for reimbursement. These inherent
                              problems can lead to an understatement of the projected maximum BSE
                              prevalence rate for truly high-risk cattle and a reduced chance of
                              detecting BSE, if it exists. In addition to developing a process for
                              obtaining samples, APHIS will need to collect better information to
                              differentiate between samples taken from livestock “condemned by
                              slaughter plants” and samples taken from high-risk animals that “die on
                              the farm.” This information is important because the high-risk animals
                              that die on the farm comprise the largest component of the targeted
                              high-risk population18 and are the most difficult to define, obtain, and
                              test.
                              APHIS has accredited19 over 60,000 veterinarians across the country,
                              including almost all veterinarians that provide care to large animals
                              (this includes cattle). As accredited veterinarians, these individuals are
                              to immediately report to the AVIC or the State Animal Health Official
                              all diagnosed or suspected cases of a foreign or eradicated animal
                              disease for which APHIS has a control or eradication program. This
                              includes BSE. If properly utilized, this network of animal care


18
   The BSE Surveillance Plan, dated March 15, 2004, page 2, states the 446,000 adult cattle APHIS estimated to be
high-risk includes an estimated “251,500 adult cattle that die on farm each year due to unknown reasons or reasons
that could be consistent with BSE-related clinical signs.”
19
   APHIS administers the National Veterinary Accreditation Program, which is a voluntary program that certifies
private veterinary practitioners to work cooperatively with Federal veterinarians and State animal health officials.
USDA/OIG-A/50601-9-KC                                                                                            Page 20
                             providers could prove an effective tool in identifying suspected cases of
                             BSE on farms and ranches.

                             A Government Accountability Office (GAO) audit report issued in
                             January 200220 also raised concerns with USDA efforts to sample cattle
                             that die on the farm. GAO reported that with regard to animal testing
                             to detect BSE, the USDA had steadily increased the number of animals
                             it tested, but the agency did not include many animals that died on
                             farms. USDA did not track brain samples from cattle that had died on
                             farms; the few that were taken would have been counted in with the
                             nonambulatory cattle. USDA told GAO that efforts to obtain samples
                             from animals that died on farms had been limited by: a) lack of
                             sufficient staff and time to collect the samples; b) lack of adequate
                             laboratory capacity to conduct the tests; and c) lack of timely
                             intervention (when animals die on farms they may be buried on the
                             farm, taken to landfills, or collected by renderers who recycle animals
                             and other animal tissues into, among other things, animal feed).

                             As of June 1, 2004, USDA has not developed a plan as to how these
                             challenges will be addressed.

Proper Identification        APHIS and FSIS had differing definitions of the targeted group of
of “Downers” Is Still        “downer” cattle that caused confusion as to when BSE samples were to
Critical To the BSE          be taken. Although FSIS and APHIS have recently issued a joint
Surveillance
                             directive to their field inspection and veterinary staffs to provide
Program
                             clarification, additional direction is necessary to ensure that all cattle
                             displaying symptoms not inconsistent with BSE are sampled.

                             Before the first case of BSE was discovered in the United States, there
                             was no regulatory definition of “downer” by either FSIS or APHIS.
                             However, an FSIS directive21 defined a “downer” as nonambulatory
                             disabled livestock that cannot rise from a recumbent position or cannot
                             walk. “Downer” livestock were identified as suspect and were either
                             condemned upon ante mortem inspection, condemned upon post
                             mortem inspection, or allowed to enter the food chain if they passed
                             post mortem inspection.

                             In response to the discovery of BSE, FSIS amended the CFR22 to
                             define animals that should be prohibited for human food as
                             nonambulatory disabled livestock. The CFR states that such animals
                             shall be condemned and cannot enter the slaughter establishment. FSIS
                             officials stated that this terminology more accurately described the
  20
     GAO Audit Report, Mad Cow Disease: Improvements in the Animal Feed Ban and other Regulatory Areas Would
  Strengthen U.S. Prevention Efforts, GAO-02-183, dated January 25, 2002. (GAO was formerly known as the
  General Accounting Office.)
  21
     FSIS Directive 6900.1 (Revision 1), dated April 29, 1992.
  22
     9 CFR, Part 309.2, dated January 12, 2004.
  USDA/OIG-A/50601-9-KC                                                                                  Page 21
                          prohibited cattle rather than using the term “downer” that had not been
                          defined in the regulations.

                          After an incident in Texas in which a cow displaying possible CNS
                          symptoms was condemned and rendered without BSE testing, FSIS and
                          APHIS issued a notice23 substantially broadening the sampling process
                          at slaughter plants. The notice stated that FSIS would take samples
                          from all cattle (without regard to age) that show signs of CNS disorders
                          (about 300 annually). In addition, the notice specified that all ante
                          mortem condemned cattle would have a portion of the brain collected,
                          except for cattle that were 400 pounds or less (veal calves).

                          According to the March 2004 BSE surveillance plan, APHIS considers
                          “downer” cattle to be nonambulatory animals that cannot rise from a
                          recumbent position or cannot walk. This is consistent with the FSIS’
                          definition of a “downer.” However, APHIS also defines high-risk
                          cattle as being severely weakened, though they may be able to stand
                          and walk for brief time periods. Since FSIS may not always condemn
                          cattle in a weakened state that are ambulatory at the time of inspection,
                          there is a potential this targeted high-risk group may not be tested for
                          BSE.

                          The IR Subcommittee considered the merits and the unintended
                          consequences of the ban prohibiting nonambulatory cattle (downers)
                          from entering the food supply. Since downers will no longer be
                          available for BSE surveillance at inspected slaughterhouses, the
                          Subcommittee stated that it is “imperative that the USDA take
                          additional steps to assure that facilitated pathways exist for dead and
                          nonambulatory cattle to allow for the collection of samples and proper
                          disposal of carcasses.”

                          APHIS and FSIS need to provide additional direction to their field
                          staffs as to how cattle in a “severely weakened” state will be identified
                          and tested. Also, USDA needs to develop a plan for identifying and
                          testing “downer” cattle no longer sent to slaughter.

Age Requirement           Inspection and BSE testing guidance contain inconsistent age criteria
for BSE Testing           for testing cattle for BSE. This has contributed to the confusion of
Should Be                 APHIS and FSIS field staffs as to which cattle should be tested.
Standardized To
Prevent Confusion         APHIS Veterinary Services Memorandum No. 580.16, dated
                          June 11, 1997, states, “All adult cattle (2 years of age and older) with
                          CNS signs, including cattle condemned at slaughter, should be
                          investigated as foreign animal disease investigations.”

23
  FSIS Notice 28-04, FSIS Sample Collection From Cattle Condemned During Ante Mortem Inspection for the
BSE Surveillance Program, dated May 20, 2004.
USDA/OIG-A/50601-9-KC                                                                               Page 22
                               A 1997 memorandum24 provides for AVICs to contact State diagnostic
                               laboratories to identify the laboratory’s standard operating procedures
                               for examining brains of cattle with CNS signs and to identify the areas
                               of the brain that are routinely examined. The memorandum states,
                               “The medulla must be examined for lesions of BSE.….AVICs are to
                               report quarterly on the number of adult (20 months of age or greater)
                               cattle with CNS signs that have been examined histologically from
                               each laboratory.” The memorandum also notes that many State
                               diagnostic laboratories were reporting the number of CNS-diseased
                               brains they examined and found negative for lesions of BSE, but that
                               the reports did not specify the age of the animals or the clinical signs
                               reported by the submitter. The memorandum stated that incomplete
                               reports from diagnostic laboratories would no longer be included in
                               surveillance reports.

                               FSIS procedure25 issued to meat inspectors at slaughter plants required
                               that cattle 20 months and older exhibiting CNS symptoms be referred
                               to APHIS for testing.       However, a newspaper article, dated
                               May 4, 2004, quoted a USDA spokesman stating that the agency’s
                               procedure was to test any and all cows exhibiting CNS disorders.
                               According to the news article, an anonymous USDA veterinarian told
                               the media that APHIS would rarely show up if the CNS animal was
                               less than 30 months old. Our field visits confirmed that APHIS
                               employees would not take samples unless cattle were either at least
                               24 or 30 months old.

                               20 months and older. NVSL followed the policy of testing all
                               submitted samples; however, only cattle 20 months and older were
                               counted toward meeting sampling goals. (For FYs 2002, 2003, and
                               2004 (through February 2004), the NVSL received and tested 199 cattle
                               less than 20 months of age and an additional 144 animals between
                               20 and 23 months of age.) Also, a draft implementation plan being
                               developed by the APHIS AVIC in Nebraska showed sampling would
                               include animals 20 months and older. The AVIC believed dentition
                               was inexact, so 20 months was specified in the State plan.

                               24 months and older. APHIS’ training procedures show cattle
                               24 months and older are to be tested. Before December 2003, APHIS
                               officials advised they were accepting samples only from those cattle
                               more than 24 months of age.             In addition, the expanded
                               February 19, 2004, draft Surveillance Plan shows cattle over
                               24 months are to be tested.


24
     Veterinary Services Memorandum No. 580.17, dated August 26, 1997.
25
     FSIS Notice 15-02, Bovine Spongiform Encephalopathy (BSE) Surveillance Program, dated May 10, 2002.
USDA/OIG-A/50601-9-KC                                                                                      Page 23
                   Over 30 months. APHIS officials advised that since January 1, 2004,
                   they will test animals age 30 months or older. The APHIS
                   Surveillance Plan, dated March 15, 2004, shows cattle over 30 months
                   are to be tested.

                   Our review of sampling information contained in the NVSL database
                   showed that in FY 2003, 9,848 tested animals were categorized as
                   “adult,” and in FY 2004 (through February 2004), 6,408 tested animals
                   were recorded as “adult.” We could not determine what age classified
                   the cattle as “adult” because age determinations were not documented
                   on the sample submission forms (i.e., over 20, 24, or 30 months) even
                   though instructions on the form specify that the approximate age is to
                   be documented in years, months, weeks, or days.

                   On May 5, 2004, the APHIS and FSIS National offices issued a joint
                   policy that requires BSE testing of all cattle condemned by FSIS on
                   ante mortem inspection for exhibiting signs compatible with CNS
                   disease, regardless of age.

                   Because of the confusion regarding the minimum age required for a
                   BSE test, there is a potential that cattle in other segments of the
                   targeted high-risk population may not be subject to BSE testing (i.e.,
                   rabies-negative and cattle that die on the farm). Consistent definitions
                   and age requirements are essential to ensure that cattle in the targeted
                   high-risk population are tested. This is especially critical since USDA
                   is expanding its network of cooperating partners, who will need to have
                   clear direction.

Recommendation No. 3

                   Develop and implement management controls to ensure USDA policy
                   for sampling cattle condemned at slaughter is consistently implemented
                   by FSIS and APHIS field staff.

                   Agency Response.

                   APHIS and FSIS agreed with this recommendation, and noted their
                   understanding that it applies to cattle condemned ante mortem. APHIS
                   has implemented measures to ensure a cross-check between FSIS
                   condemned cattle statistics and APHIS BSE surveillance statistics.

                   Both FSIS and APHIS have issued instructions to field personnel that
                   clearly state the policy to sample all cattle condemned on ante mortem
                   inspection (except veal calves condemned for non-CNS reasons). On
                   June 1, 2004, FSIS implemented FSIS Notice 28-04, which provides
                   sample collection, documentation, and shipping procedures to
                   inspection program personnel. Additionally, on May 27, 2004, FSIS
USDA/OIG-A/50601-9-KC                                                                   Page 24
                   issued FSIS Notice 29-04, which outlines FSIS’ expectations regarding
                   APHIS arrangements with establishments for sampling condemned
                   cattle at an alternative central location. In particular, the notice defines
                   what controls FSIS has in place for working with an establishment
                   during the sampling process, and recognizing an APHIS arrangement to
                   have FSIS condemned cattle transported offsite from the establishment
                   to an APHIS central sample collection point. On July 29, 2004, FSIS
                   Notice 40-04, Additional Bovine Spongiform Encephalopathy
                   Surveillance Sampling Questions and Answers, was issued. This
                   notice responded to questions FSIS personnel asked regarding the BSE
                   sampling program.

                   APHIS Veterinary Services Memorandum 580.16 outlines the policy
                   for the entire BSE surveillance program, including the expectations for
                   obtaining samples from all cattle condemned on ante mortem
                   inspection, with the exception of veal calves condemned for non-CNS
                   reasons. Personnel in both APHIS and FSIS have been trained on the
                   sample collection process. Also, APHIS has entered into an agreement
                   with the Agricultural Marketing Service (AMS) to review the BSE
                   surveillance plan.     The initial review will be completed by
                   September 15, 2004, with a followup review some time in the next
                   16-18 months.

                   APHIS will measure the results of these efforts through ongoing
                   analysis and cross-checking of data with FSIS and through the results
                   of the AMS review process. In addition, FSIS’ Office of Program
                   Evaluation, Enforcement, and Review will evaluate the FSIS ante
                   mortem/alternative collection site procedures as well as ensure that
                   there is no diversion of condemned animals into edible channels in
                   accordance with FSIS Notice 33-04.

                   These actions will be ongoing and continuous throughout the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 4

                   With assistance from public health and State veterinary diagnostic
                   laboratories, develop and implement a process for testing
                   rabies-negative samples for BSE.

                   Agency Response.

                   APHIS agreed with this recommendation and has already taken several
                   actions. APHIS first engaged in conversations with the leadership of
USDA/OIG-A/50601-9-KC                                                                       Page 25
                   the American Association of Veterinary Laboratory Diagnosticians to
                   emphasize the importance of testing rabies-negative samples. APHIS
                   followed this with a letter to all State laboratories regularly conducting
                   rabies testing. This letter requests submission of samples that meet the
                   APHIS’ target population. Also, APHIS coordinated this request with
                   the national rabies coordination group at the Centers for Disease
                   Control, and they have distributed similar requests.

                   APHIS also wrote to the laboratories to describe specific sampling and
                   shipping procedures and to emphasize that NVSL will provide shipping
                   boxes and any assistance necessary to receive samples. These standard
                   procedures were distributed to all State animal health diagnostic
                   laboratories and all known public health laboratories throughout the
                   United States.

                   APHIS directed each AVIC to personally contact the appropriate public
                   health authorities and laboratories conducting rabies testing by
                   August 31, with the AVICs also directed to report the results of these
                   contacts by September 30. APHIS will hold discussions about the
                   appropriate splitting of samples to ensure access to proper tissue for
                   each laboratory (rabies and BSE), with agreed procedures noted for
                   splitting and/or forwarding appropriate samples.

                   APHIS noted that there are at least 200 laboratories that conduct some
                   level of rabies testing on animal samples and that they believed that
                   cooperation through contact and reminders is the best approach to
                   maintaining access to those samples that fit the targeted population.

                   APHIS will measure the results of these efforts through the described
                   ongoing analysis, conducted on a regular basis throughout the program.
                   Specific one-time actions as described will be completed by
                   September 30, 2004.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 5

                   Provide outreach and education to accredited veterinarians on BSE
                   issues and develop cooperating relationships that will facilitate the
                   identification, reporting, and testing of suspect “high-risk” animals on
                   the farms, feedlots, etc.




USDA/OIG-A/50601-9-KC                                                                     Page 26
                   Agency Response.

                   APHIS agreed with this recommendation. APHIS noted it had
                   longstanding relationships with accredited veterinarians for all disease
                   reporting purposes and will build on those relationships to encourage
                   their assistance. Accredited veterinarians are obligated to report highly
                   suspicious clinical cases and are generally well aware of this
                   professional responsibility. (Of approximately 79,000 accredited
                   veterinarians, fewer than 10 percent are working in bovine, mixed
                   animal, or large animal practices.)

                   APHIS actions include: 1) contacting applicable veterinarians,
                   2) providing information directly to accredited veterinarians during
                   regular liaison activity, 3) using e-mail to distribute information,
                   4) distributing BSE Surveillance information sheets, and 5) conducting
                   outreach efforts at fairs, clubs, industry meetings, and other agricultural
                   events to inform the public.

                   APHIS is in regular contact with the American Veterinary Medical
                   Association (which has BSE information prominently displayed on
                   their main web page), the American Association of Bovine
                   Practitioners, and other veterinary and producer groups to ensure
                   education and understanding of BSE clinical signs and symptoms, as
                   well as the targeted sampling program.

                   APHIS will continue regular contact with the various veterinary
                   associations and send regular mailings to accredited veterinarians as
                   reminders. Also, APHIS will ensure that information is available about
                   its fee-basis offers for sample collectors and cost neutral options for
                   producers.

                   These actions – maintaining contact and providing information – will
                   be ongoing and continuous throughout the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 6

                   Develop sampling and reporting procedures that require accurate
                   classification of samples taken from high-risk populations.

                   Agency Response.

                   APHIS agreed with Recommendations Nos. 6 and 9 and provided a
                   consolidated response for the recommendations. APHIS has developed
USDA/OIG-A/50601-9-KC                                                                      Page 27
                   a database to enable it to track and analyze various data points on
                   samples. The database captures data from an electronic version of the
                   standard laboratory submission form, VS Form 10-4, as well as a
                   supplemental data form. The supplemental form that accompanies each
                   sample requires the submitter to note the age, clinical signs,
                   condemnation code (where applicable), and 'category' (i.e., where
                   collected and reason). Electronic submissions of these forms and
                   business rules in the database ensure consistency.

                   APHIS has trained sample collectors on use of the electronic forms and
                   instructed them to accurately record the relevant information necessary
                   to classify samples into various aspects of the targeted population. A
                   total of 985 personnel – including personnel from APHIS, FSIS, State
                   animal health agencies, and contractors – have received this training.
                   Compact disk (CD) copies of the entire training sessions for the net
                   casts and satellite seminars have been distributed. Also, sample
                   collectors can find written instructions in the BSE Surveillance Guide.
                   APHIS attached a list of training courses and opportunities provided.

                   APHIS recognizes that data collection processes over the past 14 years
                   of the surveillance program have varied considerably. In general,
                   NVSL personnel recorded certain data in multiple formats using
                   information noted on the submission form.              To address this
                   inconsistency, APHIS has developed a new, single database that allows
                   the laboratories to track sample submissions and report test results, and
                   provides a repository for data gathered at the point of sample
                   collection. These data include information about the sample collector,
                   the origin of the animal, the collection site, and specific animal
                   information. For example, when a sample is collected at a rendering
                   facility, that facility is documented as the site of collection and the
                   location from which the animal carcass originated before arriving at the
                   rendering facility is documented as the owner or source location.
                   Moreover, information pertaining to clinical signs that the animal was
                   exhibiting prior to death is also collected. If the animal is sampled
                   because it is condemned at slaughter, the reason for its condemnation is
                   entered into the database. Other data that are collected include all
                   identification on the animal, and the animal’s age, sex, and breed.
                   Finally, the general category of the high-risk population to which the
                   sampled animal belongs (e.g., suspect, dead, nonambulatory, etc.) is
                   recorded.

                   The primary data entry occurs at either the sample collector or Area
                   Office level; the laboratory also has the capability to enter data when
                   necessary. The system is interlinked, and allows data entry onsite at a
                   collection location with electronic transmission to the designated
                   laboratory or at the laboratory. The system can return reports of results
                   to the submitter and the AVIC.
USDA/OIG-A/50601-9-KC                                                                    Page 28
                   APHIS is monitoring for data integrity and quality, and has developed
                   data reconciliation protocols. APHIS recognized that all data points
                   may not be known for every animal sampled, but it will seek to
                   maximize the data it can obtain. If a particular submitter or collector
                   does not regularly provide testable samples or adequate and full
                   information, the AVIC in the relevant State will follow up to correct
                   any deficiencies. Additionally, the AMS quality assurance review will
                   evaluate the training of the sample collectors and how well they are
                   completing the Sample Data Form and VS Form 10-4 to verify
                   accuracy.

                   APHIS recognized that ensuring it identifies and obtains samples from
                   animals dying on the farm is a special challenge. APHIS noted that for
                   purposes of its enhanced surveillance program, the key is obtaining the
                   sample and information about clinical signs prior to death. Whether the
                   animal died on the farm, on the way to the salvage facility, or in the
                   pens at the slaughter facility does not matter because in each of these
                   instances, a sample could be collected and recorded as “dead” or “died
                   of unknown causes” – which fits the targeted population.

                   APHIS advised that the actions to address this recommendation – data
                   monitoring and reporting – will be ongoing and continuous throughout
                   the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 7

                   Clarify sampling and testing requirements for those animals in a
                   weakened state sent to slaughter. Develop a plan for testing “downer”
                   cattle no longer sent to slaughter.

                   Agency Response.

                   APHIS and FSIS agreed with this recommendation. Although FSIS
                   does not have a specific regulatory definition for severely weakened,
                   APHIS finds that animals encompassed by their use of this term are
                   already covered in the FSIS regulations.

                   Under the interim final rule published January 12, 2004, (9 CFR 309.2
                   and 309.3), nonambulatory disabled livestock are defined as animals
                   that “cannot rise from a recumbent position or that cannot walk,
                   including, but not limited to, those with broken appendages, severed
                   tendons or ligaments, nerve paralysis, fractured vertebral column, or
USDA/OIG-A/50601-9-KC                                                                   Page 29
                   metabolic conditions.”       All nonambulatory disabled cattle are
                   condemned and not allowed to enter the food supply. Other animals
                   such as those exhibiting septicemia, toxemia, and those encompassed
                   by the regulatory definition of nonambulatory disabled are condemned
                   on ante mortem. APHIS and FSIS agree that the term severely
                   weakened encompasses several distinct ante mortem conditions already
                   in the FSIS regulations. Animals that are severely weakened at ante
                   mortem would therefore be condemned by FSIS under their regulations
                   and sampled consistent with FSIS Notice 28-04.

                   APHIS VS Memorandum 580.16 includes animals that are “severely
                   weakened though they may be able to stand and walk for brief periods
                   of time” in the clinical presentation criteria for animals to be sampled
                   as part of the targeted cattle population.

                   APHIS noted that there are other channels available for nonambulatory
                   animals other than slaughter for human food. These facilities include
                   rendering facilities, 3D/4D or salvage slaughter facilities, and other
                   disposal options, such as deadstock facilities. APHIS provided
                   statistics that they believed demonstrate continued access through
                   channels other than slaughter for human consumption.

                   APHIS will continue ongoing and routine evaluations to document
                   maintained access to these populations, and the AMS quality assurance
                   review will validate its efforts. Furthermore, if targeted samples are not
                   acquired, contingency plans referenced earlier will address this issue on
                   an as-needed basis. The initial AMS review will be completed by
                   September 15, 2004, and other actions will be continuous and ongoing
                   throughout the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 8

                   Issue consistent USDA age requirements for testing the various
                   targeted high-risk populations.

                   Agency Response.

                   APHIS agreed with this recommendation. APHIS recognized that the
                   age requirements for sampling have changed at times since 1990 and
                   noted that only samples above the then in place age limit were reported
                   in any official counts of surveillance samples or included in any
                   statistical calculations or analysis.

USDA/OIG-A/50601-9-KC                                                                     Page 30
                   APHIS noted it had already addressed this recommendation through the
                   provision of APHIS VS Memorandum 580.16 which states that only
                   samples that meet the target population, including the age requirement,
                   will be counted in any data analysis. FSIS Notice 29-04 provides that
                   APHIS sampling of ante mortem condemned slaughter origin cattle is
                   consistent with FSIS Notice 28-04.

                   OIG Position.

                   We accept the management decision.




USDA/OIG-A/50601-9-KC                                                                   Page 31
Section 2. Program Management and Administration

                   USDA needs to establish and implement a strong management control
                   structure to provide assurance that the BSE surveillance program has
                   been effectively implemented and operates as represented to the public,
                   industry, and U.S. trading partners. Prior to June 1, 2004, we reviewed
                   the surveillance policies and processes in place and performed
                   fieldwork to determine how BSE sampling and testing was being
                   accomplished. We identified concerns that, if not corrected, will have
                   an adverse impact on the success of the expanded BSE surveillance
                   program. Most of our concerns relate to the way APHIS collects test
                   samples and maintains information about them. Specifically—

                   •    Some sample-submitters frequently submitted nonviable samples.

                   •    Sample submission documents frequently listed the slaughter
                        establishment as the owner of the animal rather than the ranch or
                        dairy it came from. This can affect APHIS’ ability to timely trace
                        potentially diseased animals to their herd of origin.

                   •    APHIS did not always exclude nontarget animals from its
                        surveillance statistics. Animals that had been tested for signs of
                        diarrhea, severe pneumonia, and inner ear infection were counted
                        towards the surveillance goals. Therefore, conclusions made about
                        the prevalence of BSE in high-risk cattle may be compromised.

                   •    Some entries in APHIS’ database were incomplete, inaccurate, or
                        questionable. Sample submitters did not include critical data (i.e.,
                        breed, sex, clinical signs) that are essential to any risk analysis and
                        measurement of the success of surveillance efforts.

                   Inaccuracies in data occurred because the system APHIS used to
                   maintain the data was not designed for that purpose. We are
                   recommending that APHIS expedite its development of a new system
                   to track and report its accomplishments under the expanded
                   surveillance program. We are also recommending that APHIS
                   implement performance measures and a continuous risk assessment to
                   enhance its management of the surveillance program and better assess
                   the program’s effectiveness.


Finding 3          APHIS’ Sampling and Data Collection Processes Raise
                   Questions About the Integrity of Surveillance Data

                   APHIS needs to reform its processes for collecting samples and for
                   ensuring the integrity of its BSE test data. The current processes do not
USDA/OIG-A/50601-9-KC                                                                       Page 32
                   ensure that all samples submitted are properly identified according to
                   the animal’s origin, that all animals whose tests are recorded are within
                   the target or nontarget population, and that all samplers retain backup
                   samples of brain tissue for purposes of verification should the sample
                   test positive. APHIS processes led to inconsistent practices and
                   improper data entries because of inadequate training, inadequate
                   instructions, and unclear criteria. These deficiencies can impact
                   APHIS’ ability to timely trace potentially diseased animals to the birth
                   cohort and other risk animals, as well as any by-products that may need
                   to be recalled. Also, APHIS’ ability to evaluate and assess the
                   effectiveness of its surveillance program can be compromised.

                   a. Collecting and Submitting Samples

                        APHIS needs to adequately train the parties responsible for
                        collecting and preparing samples and the accompanying paperwork
                        to support the integrity of its BSE testing program. Before
                        December 2003, APHIS had developed a limited amount of
                        handouts and training materials for APHIS and State personnel.
                        There was no standard training specifically designed for those
                        sample collectors working in the private sector and no requirement
                        that training or reference material of any type be provided to them.
                        As a result, field personnel did not consistently prepare and process
                        samples for submission.

                        Training needs were manifest in several areas. Field personnel in
                        Nebraska and Missouri did not normally keep excess tissue, while
                        those in Washington State, where the cow tested positive for BSE,
                        did. Some APHIS and State personnel stated that frozen samples of
                        excess tissue may be retained for up to 30 days after a test result is
                        reported, but this guidance is not presented in any official APHIS
                        rules, directives, or notices. Concerning identification of cattle
                        tested, the January 30, 2004, BSE Surveillance Guide Training
                        notes that all identification devices (i.e., ear tags), brands (in digital
                        pictures), and tattoos (in refrigerated tissue) will be collected and
                        maintained by the submitter/APHIS area office until a negative
                        diagnosis is received. However, we observed one instance where
                        cattle ear tags were incorrectly submitted with the BSE samples.
                        Laboratory officials estimated that 2 percent of the time they
                        incorrectly received ear tags along with BSE samples, instead of the
                        tags being retained onsite.

                        We also found that specimen submission forms (VS Form 10-4)
                        were not properly completed by sample collectors because
                        instructions for the form only explained 2 of the 22 form entries.



USDA/OIG-A/50601-9-KC                                                                          Page 33
                        For FYs 2002 and 2003, submitters of samples failed to list the
                        breed of the tested animal about 18 percent and 43 percent of the
                        time, respectively. They failed to list the sex of the animal about
                        8 percent of the time for both years. For FY 2004, through
                        February 2004, submitters failed to list the breed of the animal
                        36 percent of the time, its sex 10 percent of the time, and its clinical
                        signs, identification, age, and owner less than 1 percent of the time.
                        These data are essential to any risk analysis and measurement made
                        of the success of surveillance efforts.

                   b. Recognizing Sampled Cattle According To Their Geographic
                      Locations

                        Data submitted to the NVSL were not sufficient to adequately
                        identify the origin of the tested animal or permit accurate
                        assignment of samples against geographic sampling goals. The
                        BSE specimen submission forms and the NVSL database disclosed
                        that the slaughter (or rendering) plants where the animals were
                        slaughtered were generally shown as the owners rather than the
                        farmer, rancher, dairy, or feed lot that last marketed the animal.
                        APHIS headquarters officials stated that they intended that the
                        farmer, rancher, or dairy where the animals came from should have
                        been documented on the form rather than the slaughter or rendering
                        firm where the sample was collected.

                        The NVSL assigned geographic locations (origin) to the tested
                        sample that were frequently incorrect. For example, the NVSL
                        database showed that for FY 2003, a Wisconsin slaughter
                        establishment was the owner providing the most samples (2,445)
                        for BSE testing. However, the slaughter establishment actually
                        purchased animals from other States before slaughter. By contrast,
                        we identified one APHIS employee at a Florida slaughter
                        establishment who provided 376 samples showing the owners’
                        locations as the States from which the cattle were trucked. Similar
                        practices were noted for 281 samples from an Oregon slaughter
                        establishment and 20 samples from an Indiana slaughter
                        establishment, both of which recorded owner locations in other
                        States. We concluded that generally the data in the NVSL database
                        could not be relied upon to show the geographic location (origin) of
                        the cattle.

                        As noted above, the specimen submission form includes
                        instructions for completing the form, but these instructions explain
                        only 2 of the 22 entries needed. Unexplained is the part of the form
                        that asks for the origin of the animals.

USDA/OIG-A/50601-9-KC                                                                        Page 34
                          c. Distinguishing Nontarget Cattle From the Target Population

                              APHIS needs to properly classify the clinical signs tested for BSE.
                              We found lack of adequate data and inconsistencies in how test
                              results were reported toward BSE surveillance program
                              accomplishments. Reporting controls are necessary if USDA is to
                              conduct an adequate risk assessment of cattle most at risk for BSE
                              and to assess the effectiveness of its BSE surveillance program.

                              Reacting to criticism that it allowed a cow with possible CNS
                              symptoms to be rendered without taking a sample for BSE testing,
                              FSIS issued a notice26 substantially broadening the sampling
                              process at slaughter plants. The notice stressed that FSIS will take
                              samples from all cattle that show signs of CNS disorders (about
                              300 annually). Based on the wording of the notice, however, FSIS
                              inspectors will be sampling steers, heifers, and calves that are
                              condemned for symptoms, such as pneumonia, that are not related
                              to any BSE symptoms. APHIS officials told us that they would not
                              include tests of nontargeted animals in their statistics showing
                              achievement of goals, but they could not explain how such
                              exclusions will be identified in its database.

                              We also identified cases in which animals that had been tested for
                              signs unrelated to BSE were included in reported BSE testing
                              statistics. Test results for those animals that suffered from diarrhea,
                              severe pneumonia, high temperature, and inner ear infections were
                              included in the reported BSE testing results. Among the cases that
                              NVSL classifies as counting towards BSE surveillance goals are
                              those cattle that are reported as sick. In FY 2003, the NVSL
                              classified 374 of 20,514 cattle samples received for BSE testing as
                              sick. In FY 2004, the NVSL classified 552 of 11,488 cattle
                              samples received for BSE testing as sick.

                              Laboratory officials stated that a list does not exist that clearly
                              defines the diseases and clinical signs indicating BSE. However, an
                              NVSL official stated that animals with diarrhea and severe
                              pneumonia should not count towards BSE surveillance goals,
                              because animals with these conditions are not included in APHIS’
                              target population.

                              All animals tested for BSE should be identified in the BSE testing
                              database with appropriate identifying characteristics, location of

26
  FSIS Notice 28-04, FSIS Sample Collection From Cattle Condemned During Ante Mortem Inspection for the
BSE Surveillance Program, dated May 20, 2004.
USDA/OIG-A/50601-9-KC                                                                               Page 35
                        origin, and clinical signs. This information is essential for risk
                        analysis and for USDA to determine if changes are needed to its
                        surveillance program.

Recommendation No. 9

                   Develop written guidance detailing how animals should be classified
                   and recorded in the BSE database, based on the clinical signs of the
                   animal.

                   Agency Response.

                   See the Agency Response under Recommendation No. 6 and exhibit E.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 10

                   Develop instructions for the specimen submission forms that provide
                   specific instructions on the information to be included, specifically
                   clarify requirements relating to the origin of the animal. Develop a
                   followup process to ensure erroneous or improperly completed forms
                   are corrected.

                   Agency Response.

                   APHIS agreed with this recommendation and cited steps they had taken
                   to implement it. Actions taken were:

                        •   Instructions on the completion of forms (electronic and/or
                            web-based) were included in the BSE Surveillance Guide sent
                            to field sample collectors.
                        •   All of the sample collectors had multiple training opportunities
                            including Web casts, training CDs, and a satellite seminar.
                        •   All training addressed the completion of electronic forms and
                            emphasized accurate and timely data entry.

                   The response also stated that with the enhanced BSE surveillance
                   effort, a new module of VS’ surveillance information systems has been
                   developed and is being used. This new database (see response to
                   Recommendations Nos. 6 and 9 for details) provides support for the
                   laboratories to track sample submissions and report test results, and a
                   repository for data gathered at the point of sample collection. These
                   data include information about the sample collector, the origin of the
                   animal, the collection site, and specific animal information. For
USDA/OIG-A/50601-9-KC                                                                    Page 36
                   example, when a sample is collected at a rendering facility, that facility
                   is documented as the site of collection and the location from which the
                   animal carcass originated before arriving at the rendering facility is
                   documented as the owner or source location. Collecting a more
                   complete set of data at the time that samples are obtained will expand
                   APHIS’ ability to attribute each sample to the State in which the animal
                   most recently resided. In this way, it will be possible to more
                   accurately assess the geographic representation of samples obtained
                   against the standing adult cattle population.

                   APHIS reported that sample collectors were trained extensively on the
                   submission forms and instructed how to accurately record the relevant
                   information. APHIS also stated that they were monitoring data being
                   entered into the information system for quality and had developed data
                   reconciliation protocols. APHIS said that all data points might not be
                   known for every animal sampled, however, if a particular submitter or
                   collector did not regularly provide testable samples or adequate and full
                   information, the AVIC in the relevant State would provide followup to
                   correct any deficiencies. Further, APHIS reported that the laboratory
                   would contact the AVIC so that appropriate feedback and supervisory
                   guidance can be provided to sample collectors who do not accurately or
                   completely fill out the sample submission forms.

                   In addition, APHIS noted that the AMS quality assurance review will
                   validate training, ensure that data are accurately entered in the database,
                   and will include quality control checks of the Sample Data form and
                   VS Form 10-4. Monitoring these actions will be continuous and
                   ongoing throughout the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 11

                   Issue formal instructions on the policies and procedures to be followed
                   on retaining and preserving excess tissue samples until the test results
                   are reported.

                   Agency Response.

                   APHIS agreed and stated they had issued instructions both to sample
                   collectors and laboratories on maintaining and/or disposing of tissue
                   samples. The instruction to sample collectors was to dispose of excess
                   tissue along with the carcass. Laboratories were instructed, through
                   SOPs, to retain tissue frozen for 5 days if the disease is not detected; if

USDA/OIG-A/50601-9-KC                                                                      Page 37
                   the result is inconclusive, they are to send all residual tissue and
                   homogenate immediately to NVSL.

                   APHIS stated these policies and procedures were based on the science
                   behind the various tests used. The immunohistochemistry (IHC)
                   methodology requires tissues to be fixed in formalin rather than fresh.
                   When APHIS exclusively used the IHC test, fresh tissue was preserved
                   separately so other types of tests, like the western blot, could be
                   performed if deemed necessary. Rapid screening tests—now the first
                   line in the program—use fresh tissue. Thus, fresh tissue is available for
                   either western blot methods or to be formalin fixed for IHC. As
                   demonstrated by the two recent inconclusive test results on the initial
                   rapid screening tests, more than sufficient tissue was available to
                   conduct both repeats of the initial screening test and to formalin-fix for
                   immunohistochemistry. Accordingly, it is unnecessary to preserve
                   additional fresh tissue beyond that which is part of the sample itself.

                   In addition, APHIS noted that the AMS quality assurance review will
                   evaluate how well laboratories are following these procedures.

                   OIG Position.

                   We accept the management decision.


Finding 4          APHIS’ Information Technology and Processes Need To Be
                   Upgraded To Perform Adequately Under the New
                   Surveillance Plan

                   The current information technology system is not adequate for the
                   expanded surveillance program because it does not have sufficient
                   capability and established controls to process and ensure the integrity
                   of the increased number of samples and test results. APHIS needs to
                   implement an integrated system that will track samples from collection
                   to testing to reporting results, as well as integrate with diagnostic
                   testing laboratories. APHIS recognizes this concern and has begun the
                   process of designing a new BSE information system. Our fieldwork
                   disclosed various problems with the current information system and
                   information technology controls that APHIS needs to address as it
                   moves forward with the design and implementation of its new system.

                   APHIS currently uses two databases for its surveillance program. One
                   database (called the Reference Assistance (RA) database by the person
                   who maintains it) tracks all TSE tests (BSE, chronic wasting disease,
                   scrapie) performed by NVSL or by contract laboratories. The other
                   database (called the Computer Automated Laboratory Systems

USDA/OIG-A/50601-9-KC                                                                     Page 38
                   (CALS)) is used for reporting test results. Controls over these
                   databases have been such that neither is capable of adequately serving
                   the needs of the expanded surveillance program.

                        Database accuracy was questionable. We compared information
                        between some of the fields in the CALS and RA systems that
                        should have matched and found they did not. For example, during
                        the 2.5-year reporting period, 2002 through 2004, we found that the
                        purpose for the test (surveillance, foreign animal disease tracking,
                        etc.) as reported in the CALS system did not match the same data in
                        the RA system over 2,000 times.

                        When asked why the NVSL maintained separate databases with the
                        same data, a NVSL official explained that CALS is not flexible
                        enough to get information or reports out easily. It is easier to get
                        information to Headquarters and the public with the RA database
                        than with CALS.

                        Data entered into the RA database was not reviewed by a second
                        party for accuracy and consistency. NVSL was inconsistent in how
                        it counted animals with the same clinical signs towards surveillance
                        goals. Dates were also incorrectly entered. Ten samples on one
                        submission form were recorded as collected in 2022. In another
                        instance, the database showed the sample results were reported in
                        1931.

                        Establishment/FSIS field data did not always support data in
                        NVSL’s database for animals tested. Information in NVSL’s
                        database could not always be supported by documentation available
                        from the slaughter/rendering establishment or from FSIS for cattle
                        diagnosed with CNS. Characteristics relating to the CNS animals
                        tested, as shown in establishment records (i.e., owner, origin, age)
                        did not always match information recorded in NVSL records. Also,
                        FSIS condemnation/disposition records did not show the animal’s
                        characteristics (FSIS inspection records do not require this type of
                        information to be collected).

                   NVSL personnel advised us that the CALS system used by the
                   laboratory was outdated but had been reviewed and determined to
                   provide adequate security. Another laboratory official stated that
                   because the RA database was originally used only to track the progress
                   of cases, its subsequent use to report information to Headquarters and
                   the public caused it to be overwhelmed with information.

                   APHIS needs to expedite development of its new system to accomplish
                   the needs of the expanded surveillance program. APHIS has begun
                   work drafting the requirements of this system, called the National
USDA/OIG-A/50601-9-KC                                                                     Page 39
                   Animal Health Laboratory Network system. This new information
                   system is being developed to interface with multiple laboratory
                   information management systems in each diagnostic laboratory via a
                   standardized messaging protocol.

                   Of critical importance, APHIS has not determined how data from the
                   old computer systems will be incorporated with data in the new system.
                   An APHIS official said that although the 'historical data' issue is on
                   their agenda, the group designing the specifications for the National
                   Animal Health Laboratory Network has not yet made a decision about
                   the transfer. The group will need to review such things as data quality,
                   consistency between old and new data, and value of data. The process
                   selected for transferring data will depend on whether or not there is a
                   need to review original submission paperwork.

                   Requirements and design of the new system are particularly important
                   because sample testing will be contracted out to various laboratories
                   across the country. The test results from contract laboratories will need
                   to be integrated with those maintained by the NVSL.

                   As APHIS moves forward in designing and implementing its new
                   information system, it needs to address critical functions such as
                   tracking samples, transmitting data, promptly providing negative test
                   results to slaughter establishments and renderers, providing user and
                   management reports, and ensuring system and data security.

Recommendation No. 12

                   Establish management controls to ensure the accuracy and integrity of
                   the sample and test database.

                   Agency Response.

                   APHIS agreed with this recommendation and stated they had already
                   taken steps to implement it. These actions involved instructions on the
                   completion of forms, training efforts, enhanced data, a new database,
                   and feedback to allow correction of deficiencies (see the Agency
                   Response to Recommendations Nos. 6, 9, and 10 for details).

                   In addition, APHIS noted that the AMS review will validate these
                   efforts and that monitoring these actions will be ongoing throughout the
                   program.

                   OIG Position.

                   We accept the management decision.

USDA/OIG-A/50601-9-KC                                                                    Page 40
Recommendation No. 13

                   Expedite the development of the new BSE information technology
                   system. Ensure appropriate general, logical, and application controls
                   are established.

                   Agency Response.

                   APHIS agreed and reported they were already field testing the BSE
                   system to identify any problems and to improve user access and clarity.
                   As of July 23, 2004, a total of more than 22,500 records were entered
                   into the database. APHIS stated they would have the data entry
                   backlog completed and the database functional for providing reports
                   and analysis by July 30, 2004.

                   APHIS said that the new system provides secure web-based and
                   pen-tab applications that share BSE surveillance and test result data.
                   The data sharing facilitates proactive collaboration between Federal
                   and State veterinary diagnostic laboratories. It is a component of the
                   national animal health security infrastructure and provides
                   standardization, validation, quality assurance, and secure
                   communications among laboratories and program managers. It is the
                   first online system that integrates animal health laboratory sample
                   information and makes sample data available to help all participants
                   fulfill their roles.

                   Participants access the system through a secure internet connection that
                   complies with USDA’s Office of the Chief Information Officer’s
                   requirements. There is a defined permission for data access, based on
                   identification of the user and the user’s role. The system uses
                   standardized case data according to the Systemized Nomenclature of
                   Medicine and Veterinary Medicine and Logical Observation Identifiers,
                   Names and Codes. (See the Agency Response to Recommendation
                   No. 10 for additional details.)

                   The actions to make the database completely functional will be
                   completed by August 20, 2004. Monitoring the data will be ongoing
                   throughout the program.

                   OIG Position.

                   We accept the management decision.




USDA/OIG-A/50601-9-KC                                                                   Page 41
Finding 5          APHIS Needs to Establish Consistent Terms and Conditions
                   in Agreements With Non-Federal Entities Participating in the
                   Surveillance Program

                   Prior to June 1, 2004, APHIS did not have standard written agreements
                   in place to ensure consistent performance from non-Federal
                   laboratories and reasonable arrangements and charges from meat plants
                   and contractors who provide sampling services. Arrangements with
                   meat plants and sampling contractors were made on a regional basis,
                   frequently with no written agreement and generally with no national
                   guidance.

                   Agreements With Non-Federal Laboratories

                   Agreements with State contract laboratories for performing BSE testing
                   were not written and executed although APHIS had begun to draft
                   various agreements for sample collectors and other cooperators. We
                   believe APHIS needs to formalize all arrangements to include
                   consistent procedures and processes for sample integrity, performance
                   and reporting requirements, as well as reimbursements.

                   The March 15, 2004, expanded BSE Surveillance Plan states that
                   testing of the targeted high-risk population samples will be conducted
                   at NVSL and at participating network laboratories on a fee-for-service
                   basis. On March 29, 2004, and May 11, 2004, APHIS announced the
                   approval of 12 geographically dispersed State laboratories that would
                   assist in the surveillance program for BSE.

                   NVSL officials informed us that they did not plan to use a formal
                   written contract with non-Federal laboratories. Instead, APHIS
                   planned to use blanket purchase arrangements similar to those used for
                   chronic wasting disease and scrapie surveillance programs. The
                   blanket purchase arrangements for those surveillance programs covered
                   sample reimbursement, specifications, test methods, and laboratory
                   responsibilities, including receiving and shipping of samples.
                   However, the blanket purchase arrangements did not specifically cover
                   how the laboratories would be monitored for performance and quality
                   control purposes.

                   Agreements with Slaughter Establishments, Rendering Firms, and
                   Sampling Contractors

                   The BSE surveillance program was based on individual arrangements
                   with participants negotiated by each APHIS area office. As of
                   May 2004, APHIS proposed to have both formal and informal

USDA/OIG-A/50601-9-KC                                                                  Page 42
                     agreements, depending on prior working relationships. There was no
                     National level guidance on the most appropriate approach to take (oral
                     agreement, written contract, purchase order, cooperative agreement,
                     etc.) and no guidelines on amounts that would be considered reasonable
                     for reimbursing costs associated with the program. As a result, the
                     terms, conditions, and payment rates varied.

                     The APHIS western regional office polled the area offices in the region
                     to identify the types of agreements and payment terms each APHIS
                     office had with the States and private businesses participating in the
                     surveillance program. There were 15 States in the sample and
                     31 slaughter/renderer facilities. APHIS had written agreements with
                     only 1 of the 15 States and only 4 of the 31 facilities. Two other
                     facilities were paid for samples based on purchase orders, but there was
                     no formal agreement or contract to supply the samples. Details are
                     shown in the table below:

                         Figure 6: Agreements and Costs of Testing Samples in 15 States
                                                                           Type of                      Cost Per
                 State        Facility1                         No.        Agreement                    Sample
                 AZ           Slaughter Plant                   1          Oral                         No Cost
                 AR           Slaughter Plant                   1          No Agreement                 No Cost
                 CO           Slaughter Plant                   1          Oral                         $8/Sample
                 CO           Rendering Plant                   2          Oral                         $8/Sample
                 CO           Pet Food Plant                    1          Oral                         $8/Sample
                 ID           Slaughter Plant                   2          Oral                         No Cost
                 IA           Rendering Plant                   1          Oral                         $25/Sample
                 KS           Rendering Plant                   1          Written                      $615/Week
                 LA           Slaughter Plant                   1          Oral                         $100/Sample
                 MO           3D/4D Plant                       1          Written                      $10/Sample
                 NE           Slaughter Plant                   1          Oral                         $75/Sample
                 NE           Rendering Plant                   1          Purchase Order               $50/Sample
                 NM           Slaughter Plant                   1          Oral                         No Cost
                 SD           Rendering Plant                   1          Oral                         $175/Carcass
                 TX           Slaughter Plant                   9          Oral                         No Cost
                 UT           Slaughter Plant                   2          Oral                         No Cost
                 UT           Rendering Plant                   1          Oral                         No Cost
                 WA           Slaughter Plant                   1          Purchase Order               $10/Sample
                 WI           Slaughter Plant                   1          Written                      $102/Day
                 WI           Rendering Plant                   1          Written                      $400/Month
                 1
                  The information generally reflects activities during 2003 before December 2003. Surveillance activities were
                 temporarily discontinued in Texas after the discovery of the BSE-infected cow. An additional sample source
                 was added by Nebraska in 2004 that is included in the table.



                     Many of the sample suppliers have requested increased reimbursement
                     under the new program to cover additional costs for carcass storage and
                     other expenses associated with the increased volume of testing. The
                     BSE expanded Surveillance Plan states that payments for transport,
                     disposal, cold storage, and held product pending negative test results
                     would help cover additional costs incurred by industries participating in
                     BSE surveillance.


USDA/OIG-A/50601-9-KC                                                                                                      Page 43
                   We concluded that agreements with private entities that supply samples
                   for BSE testing should be in writing. They should specify procedures
                   for sampling, record retention, and carcass storage and disposal, as well
                   as costs eligible for reimbursement.

                   After our fieldwork, APHIS advised us that they had developed cost
                   recovery guidelines. The cost recovery arrangements were being
                   finalized in all States and were expected to be completed by
                   June 1, 2004. Templates for contracts and agreements had also been
                   developed and reviewed by Office of the General Counsel. Where
                   formal contracts were required, APHIS reported that the bidding
                   process was underway. As of May 25, 2004, APHIS stated that
                   225 contracts had been confirmed, and written agreements necessary to
                   begin sampling and testing were projected to be in place by
                   June 1, 2004.

                   Because APHIS’ policies and procedures were not finalized at the time
                   of our review and APHIS officials informed us that they did not intend
                   to establish formal agreements with all cooperating parties, we continue
                   to be concerned and believe that standardized agreements and processes
                   are essential to the success of the BSE surveillance program.

Recommendation No. 14

                   For State contract laboratories that will perform BSE testing under the
                   new surveillance program, develop and execute written agreements that
                   include specific provisions for responsibilities, performance, and
                   reimbursement.

                   Agency Response.

                   APHIS agreed and stated that to ensure that the 12 laboratories
                   designated to perform BSE testing for the program are operating
                   effectively they developed SOPs to address all laboratory
                   responsibilities and performance expectations. There are SOPs for:
                   conducting the specified test procedures; addressing all laboratory
                   responsibilities, performance expectation, and communication or
                   reporting requirements; documenting the chain of custody of forwarded
                   tissues from inconclusive tests; and for proficiency testing.
                   Reimbursement was addressed through a standard purchase order
                   linked to performance and contingent on proper procedures.

                   APHIS stated that specific issues related to training of laboratory
                   personnel, reporting guidelines, timeliness of reporting, and
                   confidentiality have all been addressed in the SOPs as follows:



USDA/OIG-A/50601-9-KC                                                                    Page 44
                   •    Training was initially conducted by the test kit manufacturer.
                        Competency from this training was demonstrated via the initial
                        proficiency test required prior to participating in this program, and
                        through the ongoing proficiency testing.
                   •    Reporting guidelines and confidentiality issues are addressed in the
                        basic SOP outlining responsibilities.
                   •    The timeliness issue is also specifically addressed in an SOP.

                   APHIS said they can stop payments if a laboratory is not following the
                   appropriate procedures, since reimbursement is contingent on proper
                   procedures, or they could revoke their approval to participate in the
                   program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 15

                   Require written agreements or contracts with private entities that
                   supply samples for BSE testing. Develop written agreements/contracts
                   that include specific requirements for the responsibilities, sampling
                   procedures, and reimbursement.

                   Agency Response.

                   APHIS agreed and noted that APHIS VS Memorandum 580.16
                   provides for certain financial reimbursements. When an entity provides
                   samples on a regular basis, APHIS enters into written agreements or
                   contracts. These specify the responsibilities of each party and the
                   agreed amount for the specific financial reimbursement applicable.
                   Where it is feasible to have competition, or there is a special need to
                   protect the Government’s interest, APHIS enters into contracts in
                   accordance with federal contracting procedures.

                   APHIS stated it used agreements where competition was not feasible.
                   A template of this agreement (which has been cleared by the Office of
                   the General Counsel) was provided to AVICs. By August 31, 2004,
                   APHIS plans to amend the template to add a supporting schedule of
                   cost guidelines that includes the responsibilities of the parties, sampling
                   procedures, and reimbursement.

                   OIG Position.

                   We accept the management decision.


USDA/OIG-A/50601-9-KC                                                                      Page 45
Finding 6          Performance Measures and Continuous Risk Analysis Is
                   Needed To Better Target and Assess the Effectiveness of
                   USDA’s BSE Surveillance Program

                   As noted in earlier findings of this report, APHIS needs to address
                   some inherent problems with identifying the high-risk cattle population
                   and with ensuring the integrity of its BSE sampling and testing
                   program. A supportable methodology for assessing the effectiveness of
                   the overall BSE surveillance program is essential to provide credibility
                   for any USDA assertion regarding the prevalence of BSE in the United
                   States. Also, a continuous process of risk analysis is critical in
                   targeting limited resources towards an approach that provides increased
                   assurance that BSE can be detected and is not prevalent in the United
                   States.

                   The IR Subcommittee recommended that policy actions considered by
                   USDA must achieve the objective of establishing the level of
                   effectiveness of measures through surveillance; the success of the
                   prevention and control measures should be monitored. The IR
                   Subcommittee also raised a concern regarding the differing BSE risk
                   assessments presented by the Subcommittee and by the Harvard Center
                   for Risk Analysis. The Subcommittee concluded, “BSE continues to
                   circulate, or even amplify, in the United States and North America”; the
                   Harvard Center for Risk Analysis did not come to this conclusion. The
                   IR Subcommittee emphasized that the best available science and more
                   precise risk assessments are needed to make appropriate regulatory
                   decisions.

                   In providing a risk analysis, APHIS needs to address the concerns
                   raised earlier in this report relating to the identification of high-risk
                   cattle and sampling integrity. Until these conditions change, they
                   clearly impact APHIS’ effectiveness at detecting BSE in cattle in the
                   United States. For example, the IR Subcommittee recommended
                   removal of specific risk materials from animals over 12 months of age,
                   rather than the 30 months specified by USDA. USDA responded to
                   this recommendation by stating that they will reevaluate this issue
                   based on surveillance sampling results. We question whether the
                   current surveillance program will provide USDA with the data it needs
                   to make this reevaluation. A continuous risk analysis, with strong
                   surveillance processes, would assist APHIS in targeting its resources
                   where risk is highest and the need for reform is greatest.

                   Because USDA is expanding its network of cooperating partners, it is
                   critical for USDA to establish performance standards for its BSE
                   testing program. In reviewing the BSE testing program prior to June 1,

USDA/OIG-A/50601-9-KC                                                                    Page 46
                   we found that performance standards had not been put in place by
                   APHIS for its internal testing program. In cases where samples were
                   submitted, APHIS had not established adequate controls to provide an
                   efficient, consistent turnaround time for reporting test results and had
                   not established data collection procedures to facilitate timely traceback
                   to a potentially infected animal. Also, there were no management
                   reports to monitor the effectiveness and integrity of sample submission,
                   processing, and reporting of results.

                   Also impacting USDA’s effectiveness is the quality of the samples it
                   receives and the timeliness with which it reports its test analyses. We
                   identified States and submitters who frequently submitted improper
                   samples (animal too young, wrong part of brain, clinical signs not
                   listed, etc.). We found that one State (Indiana) had a consistently
                   higher number of problem submissions in FYs 2003 and 2004 than
                   other States. We also noted a submitter in Mississippi who submitted
                   48 improper samples (wrong part of brain submitted, not enough brain
                   submitted, etc.) in FY 2003.

                   Laboratory officials stated that they believed each AVIC was
                   responsible for identifying submission errors in their area and obtaining
                   corrective actions; however, the laboratory did not provide any
                   summary of such errors to the AVICs notifying them of problems
                   encountered.

                   The timeliness issue should improve with the advent of the Enzyme
                   Linked Immune Sorbent Assay (ELISA) sampling procedure. Before
                   the ELISA procedure, in 2003, it took 5 days, on average, from the time
                   the sample was collected until it was received at the laboratory, and
                   another 12 days, on average, from the time the sample was received
                   until dissemination of the results, for a total of 17 days. During this
                   time, the goal for testing turnaround time, according to a laboratory
                   official, was 8 days for cases in which carcasses were retained (and no
                   goal for cases in which carcasses were not retained). The goal for the
                   ELISA procedure was to report the results within 24 hours of receipt
                   for 95 percent of the samples received by noon. Our analysis of ELISA
                   samples showed that turnaround time was actually 4 days, in about
                   15 percent of the samples reviewed. However, one laboratory official
                   noted the process was getting better as the laboratory ran more ELISA
                   samples.

                   The IR Subcommittee also recognized the importance of minimizing
                   the delay between receipt of samples and testing; the speed of
                   confirmation maximizes the ability to trace birth cohort and other risk
                   animals, as well as any by-products that may need to be recalled.



USDA/OIG-A/50601-9-KC                                                                    Page 47
                   We concluded that APHIS should establish performance measures to
                   monitor the efficiency and integrity of its test analyses and the
                   effectiveness of its surveillance plan. This is especially critical since
                   APHIS has decentralized its testing facilities and will use
                   12 non-Federal laboratories to conduct tests under the new sampling
                   program.

Recommendation No. 16

                   Develop a supportable methodology to evaluate the effectiveness of the
                   BSE surveillance program.

                   Agency Response.

                   APHIS agreed and stated that analysis of collected data will be an
                   ongoing and evolving effort. An APHIS epidemiologist has been
                   assigned to be responsible for performing the routine analyses. This
                   epidemiologist will work closely with the BSE surveillance program
                   manager and the APHIS TSE Working Group in conducting and
                   reporting these analyses.

                   APHIS reported that their methodology to evaluate the program’s
                   effectiveness is to measure sample results to make certain that they
                   were collecting the number and type of samples appropriate to reach
                   overall targets for achieving statistical validity of the surveillance
                   effort. Using management reports from the database (described in
                   detail in the response to Recommendations 6 and 9), data will be
                   analyzed on a weekly basis over the entire surveillance period. These
                   include:

                        •   Geographic distribution of sample collections,
                        •   Source of sampled animals, and
                        •   Categories or characteristics of sampled animals (clinical
                            presentation - highly suspicious clinical signs, CNS signs, other
                            clinical signs, nonambulatory, dead, etc.; age; other
                            characteristics as necessary).

                   If the data shows that the samples collected differ significantly in any
                   one of a number of characteristics (e.g., geographic location, source,
                   clinical signs), the cause will be analyzed and the program adjusted as
                   needed. For example, this could include changing or enhancing the
                   focus on certain locations or sources.

                   The AMS review began on July 15, 2004, and initial results should be
                   reported by September 15, 2004. AMS will conduct additional ongoing
                   reviews throughout the course of the program. Monitoring these
                   actions will be ongoing throughout the program.
USDA/OIG-A/50601-9-KC                                                                     Page 48
                   OIG Position.

                   We accept the management decision.

Recommendation No. 17

                   Establish a continuous risk assessment process as progress is made in
                   identifying the universe of and testing high-risk cattle.

                   Agency Response.

                   See the Agency Response under Recommendation No. 16.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 18

                   Establish performance measures and develop management reports to
                   monitor the effectiveness and integrity of the submission, processing,
                   and reporting of sample results.

                   Agency Response.

                   APHIS agreed and stated that they had already taken steps related to
                   the various critical control points in the process, from the sample
                   collector through the Area Office and the laboratory as necessary.

                   The sample collectors and submitters are responsible for several things,
                   such as ensuring appropriate quality and tissue location of the sample;
                   packaging and shipping samples correctly; and accurately completing
                   submission and data entry forms. The responsibilities of the sample
                   collector are described in APHIS VS Memorandum 580.16, and in the
                   BSE Surveillance Guide. APHIS stated that sample collectors have
                   received training extensively in these procedures.

                   APHIS reported that the designated laboratory is the primary control
                   point in this process. Laboratory personnel record samples that are not
                   of sufficient diagnostic quality for testing or from which the tissue
                   location is not identifiable. The laboratory will notify the AVIC of any
                   repeated problems. The AVIC in turn will address problems with the
                   individual sample collector. (It should be noted that there is no
                   requirement for tissue quality evaluation.)



USDA/OIG-A/50601-9-KC                                                                   Page 49
                   APHIS said the laboratory is also responsible for processing samples
                   appropriately, conducting the test properly, and reporting sample
                   results according to APHIS policy. APHIS has developed SOPs for the
                   designated laboratories and payment to them is contingent on following
                   these guidelines. These SOPs, as described in the response to
                   Recommendations Nos.14 and 19, address all of these responsibilities.
                   APHIS said that perhaps the most important measure to ensure
                   effectiveness and integrity of the testing process is that all inconclusive
                   results reported by the designated laboratories will undergo
                   confirmatory testing by NVSL, the national reference laboratory –
                   using the gold standard test, the IHC.

                   Further, APHIS stated that one of the SOPs specifically addresses
                   quality assurance at the designated laboratories. This outlines the
                   process of ongoing proficiency testing that will be conducted at NVSL
                   and weekly monitoring of test performance and comparison of this
                   performance to all laboratories involved. These processes will help
                   ensure quality and accuracy of the testing results.

                   The AMS review would evaluate APHIS’ performance in this area and
                   allow correction of any problems. Monitoring these actions will be
                   ongoing throughout the program.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 19

                   Ensure all agreements with other laboratories contain requirements that
                   specify the performance measures for processing samples and reporting
                   test results.

                   Agency Response.

                   See the Agency Response under Recommendation No. 14.

                   OIG Position.

                   We accept the management decision.




USDA/OIG-A/50601-9-KC                                                                      Page 50
General Comments
                               During this review, two additional items came to our attention that
                               warrant comment and consideration by USDA in finalizing its BSE
                               surveillance and testing program.

                               Peer Reviews

                               The last peer review of the TSE section of the NVSL was conducted in
                               1995. The long period between reviews occurred in part because there
                               are no specific published requirements for the timeliness of peer
                               reviews. We noted a 2000 procedure27 that provided some guidance on
                               establishing a peer review process for validation of laboratory services
                               against international standards for high-impact foreign animal disease
                               threats and endemic diseases. However, neither the 2000 document nor
                               the preceding 1998 Standard Operating Procedures (SOP) specified
                               timeframes for conducting peer reviews.

                               NVSL officials said they thought peer reviews should be conducted
                               every 5 years. The General Requirements for Accreditation of
                               Laboratories, dated January 2003, states the American Association for
                               Laboratory Accreditation conducts a full assessment of all accredited
                               laboratories at least every 2 years.

                               The 1995 peer review team reported that the laboratory was organized
                               and operating in such a way that it met international standards and that
                               it reported the results of each test clearly and objectively in accordance
                               with the test guidelines. At the time of the BSE-positive test in 2003,
                               the press reported allegations that the laboratory had a history of
                               producing ambiguous and conflicting test results. We concluded that
                               peer reviews at a prescribed and reasonable frequency would help
                               defend the laboratory against such allegations. Also, a recognized peer
                               review process would provide added credibility to the BSE testing
                               program.

                               Program Documentation

                               Our review disclosed an almost complete absence of available
                               documentation supporting the development and evolution of the USDA
                               BSE surveillance program as it existed from its inception in 1990
                               through 2003. Specifically missing was detailed support for sample
                               size determinations and for critical assumptions made in devising and

27
     The NVSL Validation of Laboratory Activities Through Peer Review SOP, dated October 16, 2000.
USDA/OIG-A/50601-9-KC                                                                                 Page 51
                   revising the sampling plans. When asked for information supporting
                   the USDA surveillance program, we were told by senior department
                   officials responsible for the program that all information and data
                   supporting the surveillance program was contained on the APHIS
                   Internet web site and very little other supporting analyses, decision
                   memoranda, or other documentation was actually provided to us for
                   review. APHIS senior management referred us to the former BSE
                   surveillance program manager, who they said would have
                   documentation supporting the program. However, the former program
                   manager provided us with only limited documentation consisting of
                   various training materials and briefing documents prepared over time
                   for the program.




USDA/OIG-A/50601-9-KC                                                                 Page 52
Scope and Methodology
                                We performed our reviews at APHIS and FSIS Headquarters, select
                                APHIS and FSIS field locations, nine slaughter establishments, and one
                                rendering facility and one 3D/4D processor. In addition, we performed
                                reviews at the Boulder, Colorado, FSIS District office, the APHIS
                                Western Regional office in Fort Collins, Colorado, and eight APHIS
                                area offices, as well as the NVSL in Ames, Iowa (see exhibit A for the
                                locations visited). Fieldwork was performed from February 23, 2004,
                                through June 2, 2004.

                                To accomplish our audit objectives, we performed the following audit
                                procedures:

                                •   We interviewed responsible program officials from APHIS and
                                    FSIS, including agency veterinarians.

                                •   We reviewed written policies and procedures relating to the BSE
                                    surveillance program, as well as regulatory functions associated
                                    with the surveillance program.

                                •   We analyzed available documentation established to evaluate the
                                    development of the BSE surveillance program, as well as the
                                    records, regulations, and management controls developed for cattle
                                    slaughter operations resulting from the discovery of the
                                    BSE-infected cow.

                                •   We evaluated the role of the NVSL in Ames, Iowa, and its
                                    responsibilities for the BSE surveillance program.

                                •   We verified information in the NVSL database to available FSIS
                                    disposition records and ante mortem condemnation records at
                                    selected slaughter establishments to validate clinical data recorded
                                    for CNS symptoms.

                                •   Using information contained in the NVSL BSE database and
                                    utilizing sample submission forms, we created an expanded
                                    database for FY 2002, 2003, and 2004.28 We evaluated this data to
                                    determine NVSL sample and testing data accuracy, trends, and
                                    anomalies.

                                •   We interviewed plant personnel concerning the surveillance
                                    program and actions to address the new food safety initiatives

28
     For purposes of this review, we reviewed the NVSL database as of the end of February 2004 for FY 2004.
USDA/OIG-A/50601-9-KC                                                                                         Page 53
                        announced by the Department immediately after the BSE positive
                        cow was identified.

                   •    We reviewed slaughter plant records and observed operations
                        related to ante mortem inspection and condemnation of cattle.

                   •    We reviewed rendering plant records related to brain samples for
                        BSE testing and observed sample collection at rendering and
                        slaughter establishments.

                   The audit was performed in accordance with Government Auditing
                   Standards. However, our review was limited due to the lack of
                   information relating to USDA’s specific, detailed plans for
                   implementing its BSE surveillance program.




USDA/OIG-A/50601-9-KC                                                                 Page 54
Exhibit A – Sites Visited
                                                                                          Exhibit A – Page 1 of 1

APHIS National Office – Riverdale, Maryland
APHIS Regional Office – Fort Collins, Colorado
APHIS National Veterinary Services Laboratories – Ames, Iowa
APHIS Center for Veterinary Biologics – Ames, Iowa
APHIS Area Office – Jefferson City, Missouri
APHIS Area Office – Des Moines, Iowa
APHIS Area Office – Topeka, Kansas
APHIS Area Office – Lincoln, Nebraska
APHIS Area Office – Madison, Wisconsin
APHIS Area Office – Tempe, Arizona
APHIS Area Office – Austin, Texas
APHIS Area Office – Olympia, Washington
Iowa State University Veterinary Diagnostic Laboratory – Ames, Iowa
Agricultural Research Service National Animal Disease Center – Ames, Iowa
FSIS National Office – Washington, DC
FSIS District Office – Boulder, Colorado
FSIS District Office – Madison, Wisconsin
Small Slaughter Plant A – Nebraska
Small Slaughter Plant B – Texas
Small Slaughter Plant C – Texas
Large Slaughter Plant D – Arizona
Very Small Slaughter Plant E – Arizona
Large Slaughter Plant F – Wisconsin
Small Slaughter Plant G – Wisconsin
Small Slaughter Plant H – California
Very Small Slaughter Plant I – Washington
3D/4D Processor29 – Missouri
Rendering Plant – Wisconsin




29
   Plants that process products from dead, dying, disabled, or diseased animals. USDA does not inspect these
facilities because they do not produce meat or poultry products that are intended to enter the human food supply.
USDA/OIG-A/50601-9-KC                                                                                         Page 55
Exhibit B             – Number of Slaughter/Renderers by State Compared to State
Sampling Goals
                                                                                Exhibit B– Page 1 of 2

Sorted by States with the Lowest Number of Slaughter/Renderer Plants

       Number of Number                    Total         Total FY
       Plants that    of     Number of Slaughter and    2002-2004
        Slaughter Slaughter Rendering Rendering         BSE Tests
 State Older Cattle Plants    Plants       Plants       Performed State Goals
WY                0        0         0              0             0     2,513
LA                0        0         1              1           127     2,312
NH                1        1         0              1             3       297
RI                1        1         0              1             0        29
NM                2        2         0              2           794     7,277
DE                1        1         1              2             1       156
AK                2        2         0              2            11        38
SC                1        1         1              2             2     1,008
NV                3        3         0              3            43     1,253
WV                2        3         1              4             3       851
CT                4        5         0              5            12       395
MA                4        4         2              6             2       341
AZ                4        4         2              6         2,559     3,335
MS                2        3         3              6           712     2,266
SD                5        5         1              6            73     6,938
VT                6        6         0              6           173     2,638
ME                6        6         0              6            11       643
AL                2        2         4              6           112     2,686
UT                5        7         1              8           908     2,724
OK                8        8         2             10            56     7,792
IN                5        6         4             10         1,063     3,289
IA                5        6         4             10         1,076     6,681
MT              12        12         0             12             2     5,076
HI                8        9         3             12            68       372
TN               12       12         0             12         1,101     4,938
ND              12        12         1             13            17     3,616
PR/VI            11       13         0             13           115     1,704
AR                8       11         2             13           904     3,672
NC                7       10         3             13         2,148     2,335
OH              11        12         4             16         1,288     5,457
VA              11        11         5             16           578     4,121
WI               11       13         4             17         7,059    23,040
GA              11        14         3             17         5,074     3,491
ID              13        16         1             17           231     8,939
WA                9       11         6             17         2,758     5,161
NJ               10       15         3             18           729       247
OR              12        13         5             18            33     4,038
KY              12        14         5             19            73     5,645
KS               10       15         5             20           167     6,972




USDA/OIG-A/50601-9-KC                                                                              Page 56
Exhibit B – Number of Slaughter/Renderers by State Compared to State
Sampling Goals
                                                                                             Exhibit B – Page 2 of 2

          Number
          of Plants   Number Number           Total       Total FY
             that        of       of      Slaughter and 2002-2004
        Slaughter Slaughter Rendering Rendering BSE Tests
 State Older Cattle Plants      Plants        Plants     Performed State Goals
MD                 18        19         2             21          20     1,512
CO                 18        20         4             24      1,421      3,728
FL                 15        20         4             24         865     5,570
IL                 11        16         9             25         106     3,325
MI                 24        27         1             28         747     5,636
MN                 19        24         8             32      3,073      9,586
NE                 27        31         7             38         508     7,077
CA                 23        26        12             38      4,349     32,705
MO                 34        40         5             45      3,310      9,097
NY                 42        45         8             53      1,558     12,024
TX                 24        34        16             50      3,815     23,374
PA                 82       104         3            107      2,273     10,583
       30             31                   32
Total             591       703      156             859     52,131    268,503




30
   The column total for plants that slaughter older cattle does not add because we could not identify the plant
location (State) for five plants. These plants are in the total, but not included in the individual State numbers.
31
   The column total for the number of slaughter plants does not add because we could not identify the plant location
(State) for eight plants. These plants are in the total, but not included in the individual State numbers.
32
   The column total for slaughter and rendering plants does not add because of the additional eight plants where the
plant location (State) could not be identified.
USDA/OIG-A/50601-9-KC                                                                                            Page 57
Exhibit C – Live Cows, Adult Slaughter Statistics, and Number of
Slaughter/Renderers by State Compared to State Sampling Goals
                                                                                    Exhibit C – Page 1 of 2


                                         FY 2003   Number of Number                   Total        Total FY
        FY 2004 FY 2004 FY 2004 Total Bulls Plants that           of    Number of Slaughter and   2002-2004
        Live Beef Live Milk Total Live and Cows     Slaughter Slaughter Rendering Rendering       BSE Tests   State
State     Cows      Cows      Cows     Slaughtered Older Cattle Plants   Plants       Plants      Performed   Goals
WY        756,000        4,000    760,000             0      0        0         0             0           0    2,513
LA        489,000       41,000    530,000             0      0        0         1             1         127    2,312
NH             3,500    16,000     19,500           123      1        1         0             1           3      297
RI             1,700     1,300         3,000      1,278      1        1         0             1           0       29
DE             4,000     8,000     12,000           209      1        1         1             2           1      156
NM        455,000      325,000    780,000        18,104      2        2         0             2         794    7,277
NV        244,000       26,000    270,000           110      3        3         0             3          43    1,253
AK             5,100     1,200         6,300        394      2        2         0             2          11       38
CT             6,000    21,000     27,000           265      4        5         0             5          12      395
MA             6,000    18,000     24,000           860      4        4         2             6           2      341
WV        186,000       14,000    200,000           130      2        3         1             4           3      851
AZ        175,000      155,000    330,000       135,862      4        4         2             6       2,559    3,335
MS        541,000       29,000    570,000            33      2        3         3             6         712    2,266
OK       1,970,000      80,000   2,050,000        8,130      8        8         2            10          56    7,792
SC        218,000       17,000    235,000       149,766      1        1         1             2           2    1,008
ME         11,000       34,000     45,000         1,038      6        6         0             6          11      643
SD       1,711,000      79,000   1,790,000       39,103      5        5         1             6          73    6,938
VT             9,000   146,000    155,000         8,404      6        6         0             6         173    2,638
IN        227,000      143,000    370,000           244      5        6         4            10       1,063    3,289
ND        937,000       33,000    970,000         1,067     12       12         1            13          17    3,616
PR/VI      *            *          *             39,130     11       13         0            13         115    1,704
UT        351,000       89,000    440,000        44,144      5        7         1             8         908    2,724
MT       1,472,000      18,000   1,490,000        2,032     12       12         0            12           2    5,076
AL        732,000       18,000    750,000             2      2        2         4             6         112    2,686
AR        982,000       28,000   1,010,000        4,479      8       11         2            13         904    3,672
HI         82,000        6,000     88,000         6,968      8        9         3            12          68      372
IA        984,000      196,000   1,180,000       20,160      5        6         4            10       1,076    6,681
TN       1,103,000      77,000   1,180,000        6,282     12       12         0            12       1,101    4,938
WI        245,000 1,245,000      1,490,000     1,016,839    11       13         4            17       7,059   23,040
GA        616,000       84,000    700,000       348,567     11       14         3            17       5,074    3,491
OH        262,000      258,000    520,000        60,196     11       12         4            16       1,288    5,457
ID        488,000      412,000    900,000       296,238     13       16         1            17         231    8,939
NC        402,000       58,000    460,000       228,648      7       10         3            13       2,148    2,335
NJ         10,000       12,000     22,000        12,365     10       15         3            18         729      247
VA        695,000      105,000    800,000         1,487     11       11         5            16         578    4,121
WA        270,000      240,000    510,000       102,887      9       11         6            17       2,758    5,161




USDA/OIG-A/50601-9-KC                                                                                    Page 58
Exhibit C – Live Cows, Adult Slaughter Statistics, and Number of
Slaughter/Renderers by State Compared to State Sampling Goals
                                                                                                 Exhibit C – Page 2 of 2


                                           FY 2003   Number of Number Number                         Total FY
          FY 2004 FY 2004 FY 2004 Total Bulls Plants that           of       of     Total Slaughter 2002-2004
          Live Beef Live Milk Total Live and Cows     Slaughter Slaughter Rendering and Rendering BSE Tests State
State       Cows      Cows      Cows     Slaughtered Older Cattle Plants   Plants       Plants      Performed Goals
OR           603,000   117,000     720,000         3,565          12        13          5                  18        33     4,038
KS         1,550,000   110,000   1,660,000         4,710          10        15          5                  20       167     6,972
KY         1,128,000   112,000   1,240,000         1,002          12        14          5                  19        73     5,645
MD            42,000    77,000     119,000         3,886          18        19          2                  21        20     1,512
CO           612,000    98,000     710,000        19,712          18        20          4                  24     1,421     3,728
FL           950,000   140,000   1,090,000         9,182          15        20          4                  24       865     5,570
IL           432,000   108,000     540,000           775          11        16          9                  25       106     3,325
MI            85,000   300,000     385,000        86,229          24        27          1                  28       747     5,636
MN           395,000   465,000     860,000      580,078           19        24          8                  32     3,073     9,586
NE         1,848,000    62,000   1,910,000      812,735           27        31          7                  38       508     7,077
CA           720,000 1,700,000   2,420,000      725,845           23        26         12                  38     4,349    32,705
MO         2,125,000   125,000   2,250,000        24,881          34        40          5                  45     3,310     9,097
NY            82,000   658,000     740,000        40,691          42        45          8                  53     1,558    12,024
TX         5,483,000   317,000   5,800,000      928,621           24        34         16                  50     3,815    23,374
PA           156,000   564,000     720,000      521,736           82       104          3                107      2,273    10,583
TOTALS 32,860,300 8,990,500 41,850,800 33      6,327,198 34      591 35    703        156   36
                                                                                                         859     52,131 268,503


* - Information not available on the January 30, 2004, NASS data sheet.




33
   The column total for bulls and cows slaughtered does not add because we could not identify the plant location
(State) for 582 bulls and stags and 7,424 cows. These animals are in the total, but not included in the individual
State numbers.
34
   The column total for plants that slaughter older cattle does not add because we could not identify the plant
location (State) for five plants. These plants are in the total, but not included in the individual State numbers.
35
   The column total for the number of slaughter plants does not add because we could not identify the plant location
(State) for eight plants. These plants are in the total, but not included in the individual State numbers.
36
   The column total for slaughter and rendering plants does not add because of the additional 8 plants where the
plant location (State) could not be identified.
USDA/OIG-A/50601-9-KC                                                                                                Page 59
Exhibit D – Condemned by Disease for FY 2003
                                                                      Exhibit D – Page 1 of 1

ANTE MORTEM CONDEMNED


                               Total Bulls,      Total Steers
           DISEASE          Stags, and Cows      and Heifers    All Calves   TOTAL
DEAD                                   20,971           2,315        8,858    32,144
MORIBUND                                 6,154            168        1,403     7,725
PYREXIA                                  1,070             63           11     1,144
EPITHELIOMA                                600              4            0       604
CENTRAL NERVOUS SYS DISORDR                133            114           19       266
GEN. MISCELLANEOUS                          23            140           20       183
PNEUMONIA                                   65             50           13       128
TOXEMIA                                     91              5            5       101
SEPTICEMIA                                  50              4           46       100
MALIGNANT LYMPHOMA                          92              1            0        93
MISC. DEGEN. & DROPSIC COND                 52             25            1        78
ABSCESS PYEMIA                              39             32            6        77
ARTHRITIS                                    7             34           24        65
MASTITIS                                    36              0            0        36
TETANUS                                     25              0           11        36
INJURIES                                    17             11            2        30
MISC. INFLAMMATORY DISEASES                  4              3            0         7
PERICARDITIS                                 2              4            1         7
MISC. INFECTIOUS DISEASES                    3              1            2         6
VESICULAR DISEASES                           6              0            0         6
MISC. NEOPLASMS                              5              0            0         5
RABIES                                       2              2            0         4
ACTINOMYCOSIS ACTINOBACIL                    3              0            0         3
METRITIS                                     3              0            0         3
RESIDUE                                      1              0            2         3
MISC. PARASITIC CONDITIONS                   1              0            0         1
MYIASIS                                      0              1            0         1
PIGMENT CONDITIONS                           1              0            0         1
           Grand Total                 29,456           2,977       10,424    42,857




USDA/OIG-A/50601-9-KC                                                                     Page 60
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 1 of 18




USDA/OIG-A/50601-9-KC                                                  Page 61
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 2 of 18




USDA/OIG-A/50601-9-KC                                                  Page 62
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 3 of 18




USDA/OIG-A/50601-9-KC                                                  Page 63
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 4 of 18




USDA/OIG-A/50601-9-KC                                                  Page 64
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 5 of 18




USDA/OIG-A/50601-9-KC                                                  Page 65
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 6 of 18




USDA/OIG-A/50601-9-KC                                                  Page 66
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 7 of 18




USDA/OIG-A/50601-9-KC                                                  Page 67
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 8 of 18




USDA/OIG-A/50601-9-KC                                                  Page 68
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 9 of 18




USDA/OIG-A/50601-9-KC                                                  Page 69
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 10 of 18




USDA/OIG-A/50601-9-KC                                                   Page 70
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 11 of 18




USDA/OIG-A/50601-9-KC                                                   Page 71
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 12 of 18




USDA/OIG-A/50601-9-KC                                                   Page 72
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 13 of 18




USDA/OIG-A/50601-9-KC                                                   Page 73
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 14 of 18




USDA/OIG-A/50601-9-KC                                                   Page 74
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 15 of 18




USDA/OIG-A/50601-9-KC                                                   Page 75
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 16 of 18




USDA/OIG-A/50601-9-KC                                                   Page 76
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 17 of 18




USDA/OIG-A/50601-9-KC                                                   Page 77
Exhibit E – Agency Response to the Draft Report
                                                  Exhibit E – Page 18 of 18




USDA/OIG-A/50601-9-KC                                                   Page 78
Informational copies of this report have been distributed to:


Administrator, FSIS
       Attn: Assistant Administrator for Office of Program Evaluation, Enforcement, and
       Review (20)
Administrator, APHIS
       Attn: Deputy Administrator for Marketing Regulatory Program Business Services (9)
Government Accountability Office (1)
Office of Management and Budget (2)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division (1)
